<html>
<title> - THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) FISCAL YEAR 2008 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  THE NATIONAL OCEANIC AND ATMOSPHERIC 
                 ADMINISTRATION (NOAA) FISCAL YEAR 2008 
                            BUDGET PROPOSAL 
=======================================================================
                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2007

                               __________

                           Serial No. 110-16

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE

34-014 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      















          








                      COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
         ELAINE PAULIONIS Democratic Professional Staff Member
                    STACEY STEEP Research Assistant



















                            C O N T E N T S

                             March 22, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     9

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................    10

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

                               Witnesses:

Vice Admiral Conrad Lautenbacher, Jr. (U.S. Navy, Ret.), Under 
  Secretary of Commerce for Oceans and Atmosphere and NOAA 
  Administrator, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    19

Dr. Len Pietrafesa, Associate Dean, Office of External Affairs; 
  Professor of Ocean and Atmospheric Sciences, College of 
  Physical and Mathematical Sciences, North Carolina State 
  University
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    33

Discussion
  National Weather Service Operations............................    33
  National Polar Orbiting Operational Environmental Satellite 
    System (NPOESS)..............................................    35
  Wildfire and Drought Warnings..................................    35
  Insufficient Funding Levels....................................    36
  Law Enforcement Capability.....................................    37
  Research Capability............................................    38
  National Marine Fisheries Service (NMFS).......................    39
  Satellite Capability...........................................    42
  International Collaboration....................................    44
  More on the National Marine Fisheries Service (NMFS)...........    45
  Climate Change.................................................    46
  More on the NPOESS.............................................    47
  Water Monitoring Programs......................................    49
  New Programs...................................................    49
  Hurricane Forecasting..........................................    51
  More on Insufficient Funding...................................    53
  Water Conservation.............................................    54

             Appendix 1: Answers to Post-Hearing Questions

Vice Admiral Conrad Lautenbacher, Jr. (U.S. Navy, Ret.), Under 
  Secretary of Commerce for Oceans and Atmosphere and NOAA 
  Administrator, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce....................................    60

Dr. Len Pietrafesa, Associate Dean, Office of External Affairs; 
  Professor of Ocean and Atmospheric Sciences, College of 
  Physical and Mathematical Sciences, North Carolina State 
  University.....................................................    62

             Appendix 2: Additional Material for the Record

Statement by Dr. Braxton C. Davis, Director, Science and Policy 
  Division, Office of Ocean and Coastal Resource Management, 
  South Carolina Department of Health and Environmental Control..    66


THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) FISCAL YEAR 
                          2008 BUDGET PROPOSAL

                              ----------                              


                        THURSDAY, MARCH 22, 2007

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  The National Oceanic and Atmospheric

                 Administration (NOAA) Fiscal Year 2008

                            Budget Proposal

                        thursday, march 22, 2007
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, March 22, 2007 at 2:00 p.m. the House Committee on 
Science and Technology's Subcommittee on Energy and Environment will 
hold a hearing to examine the National Oceanic and Atmospheric 
Administration (NOAA) fiscal year 2008 (FY08) budget proposal.

Witnesses

Vice Admiral Conrad Lautenbacher, Jr., Under Secretary of Commerce for 
Oceans and Atmosphere and Administrator, National Oceanic and 
Atmospheric Administration

Dr. Len Pietrafesa, Associate Dean, Office of External Affairs, 
Professor of Ocean & Atmospheric Sciences, College of Physical & 
Mathematical Sciences, North Carolina State University

Background

    The President's FY 2008 budget request for the National Oceanic and 
Atmospheric Administration (NOAA) is $3.96 billion, 2.7 percent below 
the FY 2006 appropriated funding.
    NOAA's mission includes weather forecasting, climate prediction, 
management of fisheries and coastal and ocean resources. In addition, 
NOAA is responsible for mapping and charting our coastal areas and 
providing other navigation support services through programs of the 
National Ocean Service (NOS). NOAA also conducts research in support of 
these missions including atmospheric sciences, coastal and oceanic 
science, climate and air quality research, ecosystem research, and 
fisheries and marine mammal research. NOAA also operates a 
constellation of satellites that monitor and transmit data for weather 
forecasting, climate prediction, space weather forecasting, and Earth 
and ocean science research through the National Environmental Satellite 
Data and Information Service (NESDIS).
    The President's requests for NOAA routinely exclude funding for a 
wide array of Congressionally-mandated projects with some of this 
funding is re-directed to Presidential priorities. However, much of 
this funding is simply cut from the NOAA budget resulting in a lower 
funding request for NOAA. This is especially true for accounts in NOS 
which has the highest number of Congressionally-mandated activities.
    The table below shows the six primary accounts of the agency's 
budget. The only line office receiving a substantial increase in the FY 
2008 request is the National Weather Service (NWS). The FY 2008 request 
would result in funding levels below FY 2006 appropriations for all 
other offices, with NOS receiving the largest reduction of $122 
million, a 21 percent reduction.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


National Weather Service:

    The National Weather Service (NWS) provides weather, hydrologic, 
and climate forecasts and warnings for the United States, adjacent 
waters, and ocean areas for the protection of life and property. NWS 
provides a national infrastructure to gather and process data worldwide 
from the land, sea, and air.
    The NWS is the only line office that receives a substantial 
increase in the President's FY 2008 request. The FY 2008 request for 
NWS is 6.5 percent higher than the 2006 enacted levels. Three areas 
account for most (about 84 percent) of the $55.3 million increase: 
mandatory federal pay raises ($18.3 million); operation and maintenance 
of the Advanced Weather Interactive Processing System (AWIPS), 
Automated Surface Observing System (ASOS), and Next Generation Weather 
Radar (NEXRAD) ($11.3 million); and the expansion of the Tsunami 
Warning Network ($17.2 million).
    AWIPS is the specialized software package that enables forecasters 
to prepare accurate, timely forecasts and warnings. ASOS is composed of 
the sensors needed to measure and record significant weather 
conditions. NEXRAD is the radar system that shows patterns and movement 
of weather conditions.
    The increases for the Tsunami network involves funds to repair one 
of the weather data buoys that add to the enhanced real-time hurricane 
observations and storm monitoring as well as complete the 39 DART buoy 
network system. The completion of the tsunami detection network expands 
NWS's operational capabilities.
    However, this is the only area where the Administration proposes to 
make an investment in improved forecasting to protect life and 
property. If funds for the mandatory pay raise and tsunami network 
expansion are excluded from the FY 2008 request, the proposed NWS 
budget increase is a little over two percent. The Tsunami Hazard 
Mitigation Program was moved from Oceanic and Atmospheric Research 
(OAR) with a request of $2.1 million.
    NWS also requests a $1.9 million increase to fund operations, 
maintenance and transition costs associated with the planned frequency 
conversion and technical updating of the NOAA Wind Profiler Network 
(NPN). The NPN improves NWS forecast capability during tornadoes, 
winter storms, and other severe storms improving their ability to 
provide aviation and fire weather warnings. The NPN has been in a 
quasi-operational status. The funds requested will provide for the 
transition of the NPN to full operational status.
    NOAA requests an increase of $2.3 million for the Space Environment 
Center (SEC) over the FY 2006 enacted funding level. The $6.2 million 
request will support SEC real-time monitoring and forecasting of solar 
and geophysical events. This will support the space weather alerts and 
warnings for disturbances that can affect satellite operations, 
electric utility transmission equipment, astronauts working in the 
space station and people in aircraft flying along polar flight paths.
    This FY 2008 request increase may not be sufficient to fully cover 
all operational and maintenance requirements for current weather 
forecasting equipment especially if we experience a year with high 
frequency of severe weather events and hurricanes that often result in 
damage or loss to weather monitoring and forecasting equipment. This 
level of funding will not enable NWS to move new monitoring and 
forecasting equipment from research to fully operational mode.

National Environmental Satellite Data and Information Service (NESDIS):

    The President's budget FY 2008 budget request would increase the 
overall NESDIS budget increased by three percent ($26 million 
increase). The budget for NESDIS is dominated by the procurement, 
acquisitions and construction (PAC) accounts for the polar and 
geostationary satellite systems.
    The Operations, Research and Facilities (ORF) account for NESDIS 
contains the programmatic funding for management, processing, 
analyzing, and archiving the data received from all of NOAA's weather 
monitoring equipment--both ground-based and space-based. This program 
account includes funds for data processing and analyses at data centers 
located in Kentucky, North Carolina, Maryland, and West Virginia.
    This account also supports a number of regional climate centers. 
The FY 2008 request for these accounts is $20 million below the FY 2006 
enacted levels. The FY 2008 request also eliminates $4 million in 
funding for NOAA-NASA Partnerships to facilitate the transfer of 
research to operations. The Data Centers and Information Services 
accounts are reduced by $18 million from the FY 2006 enacted levels.
NESDIS Procurement, Acquisitions and Construction (PAC) Accounts:
    NOAA operates two satellite systems that collect data for weather 
forecasting. The polar satellites (Polar-Orbiting Environmental 
Satellites--POES) orbit the Earth and provide information for medium to 
long-range weather forecasts. The geostationary satellites (GOES) 
gather data above a fixed position on the Earth's surface and provide 
information for short-range warnings and current weather conditions. 
Both of these systems are scheduled for replacement through the NPOESS 
and GOES-R programs, respectively. Because of the long time period 
required to design and develop new satellite series, the procurement of 
a new series begins years before the current series has completed its 
production cycle. Therefore, NOAA's procurement budget in this area 
includes both funds to complete and launch current weather satellites 
(POES and GOES) and funds to design and develop the next generation of 
weather satellites (NPOESS and GOES-R).
    The current series of Geostationary Operational Environmental 
Satellites (GOES-N, O and P) are nearing completion. GOES-N was 
launched last May. The FY 2008 request of $80.4 million will support 
the continued development, procurement and launch of the remaining GOES 
satellites scheduled for April 2007 and October 2008, respectively. The 
request for GOES-R, the new series of geostationary satellites ($279 
million) has been reduced from the original FY 2008 estimate ($532 
million) to reflect changes in the program's content (reducing the 
number of instruments and planned number of satellites) and to provide 
additional time to re-structure the program.
    The current series of Polar-Orbiting Environmental Satellites 
(POES) is nearing the end of its production cycle. There is one 
remaining satellite in this series to be launched (POES N-Prime). This 
satellite was damaged in production in 2003. Problems with the new 
series of polar satellites, National Polar Orbiting Environmental 
Satellite System (NPOESS) has resulted in a delay for the first launch 
of an NPOESS satellite. To decrease the risk of gaps in weather data 
from these satellites, the last POES satellite will now be launched in 
2009. The original planned request for POES in FY 2008 was $62 million. 
The FY 2008 request is $43 million above the original estimate for FY 
2008 provided in the FY 2007 request. The extra funds are to cover 
costs for rebuilding and storage costs for N-Prime, support for testing 
of a European satellite, installation of NOAA instrumentation on a 
European satellite, and to restore N-Prime funding that was re-directed 
to POES-N due to an unplanned delay in the launch of the POES-N 
satellite.
    The request for NPOESS, the new polar satellite series, is $331 
million. This is $13 million less than the planned FY 2008 request 
included in the FY 2007 budget. The funding will cover the continued 
development, production and risk reduction activities for the four key 
instruments to be included on the test satellite, the NPOESS 
Preparatory Project (NPP), scheduled for launch in 2010. Funding for 
this program will be officially re-evaluated and estimated and the 
prime contract will be re-negotiated later this year.

Oceanic and Atmospheric Research:

    The office of Oceanic and Atmospheric Research (OAR) is the primary 
research arm of NOAA that provides the scientific information and tools 
needed for better understanding of the oceans and atmosphere. OAR 
conducts the scientific research, environmental studies, and technology 
development needed to improve NOAA's operations. OAR consists of seven 
internal research laboratories and manages extramural research at 30 
National Sea Grant colleges and universities. Therefore, OAR contains 
over half of the research programs at NOAA. These programs are reduced 
by nearly $11 million below the FY 2006 enacted levels an approximate 
three percent reduction.
    NOAA's FY 2008 budget request for Climate Research increases by $23 
million (13.5 percent) over FY 2006 enacted funding. Most of this 
increase is in the competitive research program and is accomplished by 
redirection of funds from Congressionally-mandated projects. This 
includes $50 million for Laboratories and Cooperative Institutes and 
Climate Data and $133 million for the Competitive Research Program. A 
portion of this increase of $5 million will enhance our understanding 
of the link between ocean currents and rapid climate change. An 
additional $1 million in funding will provide additional computational 
support for assessing abrupt climate change.
    The Administration's FY 2008 NOAA budget reflects an increase in 
requested funds for ocean activities included in the Ocean Action Plan 
(OAP) and the recently released Ocean Research Priorities Plan (ORPP). 
The FY 2008 NOAA budget includes $143 million to support three major 
areas outlined in the OAP: (1) Enhanced ocean science and research; (2) 
Protection and restoration of sensitive marine and coastal areas; and 
(3) Ensuring sustainable use of ocean resources.
    The FY 2008 budget includes funding for several important ocean and 
coastal programs for the first time and the FY 2008 budget request is 
higher than the FY 2007 request. However, the $143 million provided in 
the Ocean Action Plan represents a decrease of over $200 million from 
the FY 2006 request for ocean, Great Lakes, and fisheries programs at 
NOAA. The Integrated Ocean Observing System (IOOS) receives a request 
of $11.5 million for regional observations.
    The Administration's budget once again cuts the Ocean, Coastal, and 
Great Lake Research account below previous years' funding. The FY 2006 
appropriation level is reduced from $127 million to $105 million, a 17 
percent decrease for these programs.
    Sea Grant receives a very small increase ($166 thousand), and the 
Administration requests an increase for Ocean Exploration of about $14 
million. The Administration proposed last year to merge the National 
Undersea Research Program (NURP) with the Ocean Exploration Program. 
The budget appears to reflect this proposal. All funding for NURP is 
eliminated ($9 million). Again, the largest reduction comes through the 
elimination of Congressionally-mandated projects under the category of 
Other Partnership Programs.
    The FY 2008 budget request for programs authorized in the Harmful 
Algal Bloom and Hypoxia Research and Control Act (HABHRCA) is $8.9 
million, a $9.5 million decrease from FY 2006 funding. HABHRCA 
authorizes funding for research on harmful algal blooms (HABs) and 
hypoxia to advance scientific understanding and our ability to detect, 
assess, predict, control, and mitigate these events.
    Weather and Air Quality research accounts are reduced in the FY 
2008 request by $21 million dollars (30 percent decrease) from the FY 
2006 enacted levels. The Laboratories and Joint Institutes would 
receive about $6 million above FY 2006 enacted levels, but the other 
Partnership Programs are reduced by $25 million with the elimination of 
over a dozen Congressionally-mandated projects.
    The OAR budget also contains funding for the High-Performance 
Computing and Communication (HPCC) program. NOAA relies upon 
sophisticated computer models to make major improvements in NOAA's 
ability to forecast the weather and climate and to model ecosystems and 
ocean processes. The FY 2008 budget request proposes $12.97 million, a 
$6.6 million increase for this program.

National Ocean Service:

    The National Ocean Service (NOS) protects the National Marine 
Sanctuaries and is an advocate for coastal and ocean stewardship. It 
also introduced electronic nautical charts which they combine with 
Global Positioning Systems (GPS) to enhance the safety and efficiency 
of navigation of U.S. waterways. The President's FY 2008 request for 
NOS would reduce funding for NOS programs by over 20 percent. The 
largest reductions are in the Ocean Assessment program ($36 million) 
and in the Response and Restoration program ($13 million) of the Ocean 
Resources, Conservation and Assessment accounts.
    Funding for Navigational Services including mapping and charting 
and geodetic surveys (measuring and monitoring the size and shape of 
the Earth and locating points on its surface) would be reduced by over 
$5 million in the FY 2008 request.
    The Ocean and Coastal Zone Management accounts would receive about 
$4 million additional in funding primarily through an increase in the 
request for funds in the Marine Sanctuary program.

Program Support:

    The Program Support account includes funding for corporate services 
and agency management. This is the Under Secretary's office, the office 
of the Chief Financial Officer, and the Program, Planning and 
Integration Office.
    The Program Support account also includes the NOAA Education 
Program. Overall, the Program Support account is reduced by about 10 
percent as compared to the FY 2006 enacted level. Most of this 
reduction is due to a reduction in the procurement accounts.
    However, the proposed funding for NOAA education programs is also 
reduced significantly below the $38 million enacted for these programs 
in FY 2006 to a proposed funding level of $19 million (48 percent 
reduction). NOAA plans to provide lower funding levels for the Hollings 
Scholarship ($3.7 million); the Nancy Foster Scholarship ($400,000); 
JASON Education and Outreach ($1 million) and the Education Partnership 
Program ($14 million).
    With a nearly fifty-percent cut to the Education Program, the 
promotion of careers in environmental sciences to ensure future 
workforce in disciplines critical to NOAA's mission is undermined.
    Chairman Lampson. I will call this meeting to order. I wish 
everyone a good afternoon. Welcome everyone to today's 
Subcommittee hearing on the National Oceanic and Atmospheric 
Administration Fiscal Year 2008 Budget Request. This important 
agency provides warnings to our citizens of severe weather, 
charts our seas and skies, guides the management of our ocean 
and coastal resources and conducts research to improve our 
understanding of the environment.
    NOAA is a diverse agency with many important missions and 
responsibilities. However, issuing watches and warnings of 
severe storms may be the role for which NOAA is most famous. In 
Texas we experience storms every year in the form of tornadoes 
and hurricanes. In 2005, the Gulf Coast experienced one of the 
worst natural disasters in American history when Hurricanes 
Katrina and Rita slammed into our coastline back to back. Texas 
was hit especially hard by Rita causing billions of dollars in 
damage. Fortunately, many lives were saved as a result of the 
forecasting done by NOAA's National Hurricane Center and the 
local forecasting offices of the National Weather Service.
    Accurate prediction of hurricanes and other severe storms 
and sound management of our ocean and coastal resources can 
only be achieved through sound investments in the personnel, 
equipment, and research at NOAA.
    While there are some encouraging features of this year's 
budget request for NOAA, the Administration has once again 
requested less funding for 2008 than Congress appropriated in 
past years. The Administration's budget provides few 
opportunities to expand NOAA capacity to fulfill its diverse 
missions. If NOAA is to advance its capabilities to forecast 
the weather, if we are to restore our fisheries and coastal 
ecosystems to a productive and healthy state, if we are to 
advance our understanding of the oceans and the atmosphere, we 
must invest additional funds in this agency. I have said it a 
thousand times that an investment will give us significant 
return when we make those investments, if they are done right.
    We continue to be concerned about the procurements for the 
new polar and geostationary weather satellite systems. It is 
essential that we have these new systems completed and 
delivered in time to avoid any gaps in coverage of weather 
data. I am also concerned about the long-term implications of 
the cost overruns in the polar satellite program, NPOESS, for 
NOAA's budget in the future. The Committee will continue to 
follow both of these procurements closely.
    On the positive side, the Administration included funding 
for an integrated ocean observing system, funding for the 
National Integrated Drought Information System, NOAA's wind 
profilers, and funding to complete the Tsunami Warning Network. 
I also support the provision of funds to cover the cost of pay 
raise for NOAA employees. The work NOAA does every day impacts 
our everyday lives and supports our economy.
    I look forward to hearing the testimony of our witnesses 
who are here today, and I thank you very much, your views on 
the Administration's budget proposal, and your recommendations 
for improving NOAA's capabilities in the atmospheric and ocean 
sciences.
    At this time I'd like to recognize our distinguished 
Ranking Member, Mr. Inglis, of South Carolina, for his opening 
statement.
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    Good Afternoon. I want to welcome everyone to today's Subcommittee 
hearing on the National Oceanic and Atmospheric Administration FY 2008 
budget request.
    This important agency provides warnings to our citizens of severe 
weather; charts our seas and skies; guides the management of our ocean 
and coastal resources; and conducts research to improve our 
understanding of the environment.
    NOAA is a diverse agency with many important missions and 
responsibilities. However, issuing watches and warnings of severe 
storms may be the role for which NOAA is the most famous.
    In Texas we experience severe storms every year in the form of 
tornadoes and hurricanes. In 2005, the Gulf Coast experienced one of 
the worst natural disasters in American history when Hurricanes Katrina 
and Rita slammed into our coastline back-to-back.
    Texas was hit especially hard by Rita, causing billions of dollars 
in damage. Fortunately, many lives were saved as a result of the 
forecasting done by NOAA's National Hurricane Center and the local 
forecasting offices of the National Weather Service.
    Accurate prediction of hurricanes and other severe storms and sound 
management of our ocean and coastal resources can only be achieved 
through sound investments in the personnel, equipment, and research at 
NOAA.
    While there are some encouraging features of this year's budget 
request for NOAA, the Administration has once again requested less 
funding for NOAA in 2008 than Congress appropriated in past years. The 
Administration's budget provides few opportunities to expand NOAA's 
capacity to fulfill its diverse missions.
    If NOAA is to advance its capabilities to forecast the weather, if 
we are to restore our fisheries and coastal ecosystems to a productive 
and healthy state, if we are to advance our understanding of the oceans 
and the atmosphere, we must invest additional funds in this agency.
    We continue to be concerned about the procurements for the new 
polar and geostationary weather satellite systems. It is essential that 
we have these new systems completed and delivered in time to avoid any 
gaps in coverage of weather data.
    I am also concerned about the long-term implications of the cost-
overruns in the polar satellite program--NPOESS--for NOAA's budget in 
the future. The Committee will continue to follow both of these 
procurements closely.
    On the positive side, the Administration included funding for an 
integrated ocean observing system, funding for the National Integrated 
Drought Information System, NOAA's wind profilers, and funding to 
complete the Tsunami Warning Network. I also support the provision of 
funds to cover the cost of the pay raise for NOAA employees.
    The work NOAA does everyday impacts our everyday lives and supports 
our economy.
    I look forward to hearing your testimony, your views on the 
Administration's budget proposal, and your recommendations for 
improving NOAA's capabilities in the atmospheric and ocean sciences.

    Mr. Inglis. Thank you, Mr. Chairman, and thank you for 
being here today with us. Good afternoon. This hearing about 
the President's fiscal year 2008 request for the National 
Oceanic and Atmospheric Administration is an important part of 
what we do here at the Science Committee. This is a tight 
budget climate, and given all the competing demands for federal 
resources, this appears to be a balanced budget request for 
NOAA. It maintains ongoing operational needs while providing 
for some new initiatives that have been recommended by the U.S. 
Commission on Ocean Policy.
    I am particularly interested in the budget for the National 
Weather Service. This arm of NOAA provides vital services that 
our citizens and economy depend on every day. My state of South 
Carolina faces threats from hurricanes, occasional ice storms, 
if you can believe it, and flooding just to name a few. Without 
the timely and accurate forecast and warnings provided by the 
Weather Service, we would be in the dark about these dangers, 
and so I want to make sure that the Weather Service continues 
to have the resources to do its great work.
    NOAA also provides important information services for other 
parts of our coastal communities or other aspects for our 
coastal communities. While I recognize that many in the ocean 
community would like to see an even larger budget for NOAA, I 
would give the Admiral credit for the new initiatives in the 
Fiscal Year 2008 Budget Request that reflect priorities in the 
President's Ocean Action Plan. At a time when many agencies 
face flat or declining budgets, he convinced the Administration 
to invest $123 million in programs that will improve our 
understanding of stewardship of coastal and ocean resources. We 
are grateful for your work on that, Admiral.
    Thank you to both of you for being here, and we look 
forward to hearing more of the details of the NOAA proposed 
budget for 2008. And I yield back the balance of my time, Mr. 
Chairman.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good afternoon. Thank you, Chairman Lampson, for holding this 
hearing about the President's Fiscal Year 2008 request for the National 
Oceanic and Atmospheric Administration.
    Outside this committee, we don't hear much about NOAA, but that's 
not because NOAA isn't doing much. The services NOAA provides have 
broad applications and impacts, and it's vital that these services have 
the resources necessary to continue to do the best job possible.
    Take the National Weather Service for example. This arm of NOAA 
provides vital services that our citizens and economy depend on every 
day. One of those citizens and businessmen is my brother, who operates 
a shrimping boat in Bluffton, South Carolina. The timely and accurate 
forecasts and warnings provided by the Weather Service enable my 
brother to profit from the best weather, and avoid the worst. It's 
vital that this, and other services, have the resources necessary to 
continue to do the best job possible.
    NOAA also provides important information and services for coastal 
communities. While I recognize that many in the ocean community would 
like to see an even larger budget for NOAA, I want to give Admiral 
Lautenbacher credit for the new initiatives in the FY 2008 budget 
request that reflect priorities in the President's Ocean Action Plan. 
At a time when many agencies face flat or declining budgets, he 
convinced the powers that be to invest $123 million in programs that 
will improve our understanding and stewardship of coastal and ocean 
resources. We should not overlook his good work on that issue.
    I thank our witnesses for being here today and look forward to 
learning more details about NOAA's proposed FY 2008 budget.
    I yield back the balance of my time.

    Chairman Lampson. Thank you, Mr. Inglis. I ask unanimous 
consent that all additional opening statements, and we have so 
many Members here today, submitted by the Subcommittee Members 
be included in the record. Without objection so ordered.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good afternoon. I would like to thank the witnesses for appearing 
before our subcommittee today to discuss the President's fiscal year 
2008 (FY08) budget proposal for the National Oceanic and Atmospheric 
Administration (NOAA).
    The National Weather Service (NWS) is under the jurisdiction of 
NOAA and it plays a significant role in providing weather forecasting 
for a variety of sectors. Specifically, the NWS's weather products and 
data are a vital component of the Federal Aviation Administration's 
(FAA's) air traffic control system, providing timely and accurate 
weather information to local, regional, and national air traffic 
management, navigation, and surveillance systems. To ensure our 
nation's aviation weather technologies and services are accurate, cost 
effective, and efficient, I am pleased the Government Accountability 
Office (GAO) is in the process of evaluating the NWS's efforts to 
implement recommendations to improve aviation weather services and I 
look forward to hearing from our witnesses on the current status of the 
Nation's aviation weather technologies and services.
    In addition to NWS's role in providing weather services to the 
aviation community, the agency within NOAA is also involved in 
forecasting weather for our communities. In Southwestern Illinois, 
there have been a series of bad weather-related storms causing 
significant damage and destruction to communities in the congressional 
district I am privileged to represent. As a result, several of the 
counties were declared federal disaster areas by the President, and our 
region has been eligible for assistance to rebuild and restore homes, 
schools, businesses, and local infrastructures. Before any storm hits, 
it is critically important to have accurate and timely information on 
weather forecasts in order to prepare.
    While I recognize that weather forecasting is not 100% correct, 
computer modeling and weather forecasting programs continue to advance 
in order to reduce the margin of error. The President's FY08 proposed 
budget provides for a 6.5 percent increase than the 2006 enacted levels 
for the National Weather Service (NWS). I am pleased the Next 
Generation Weather Radar (NEXRAD), a radar system that shows patterns 
and movements of weather conditions, received an $11.3 million 
increase.
    However, I have concerns that the FY08 increase for the NWS may not 
be sufficient to fully cover all operational and maintenance 
requirements for current weather forecasting equipment, especially if 
we experience a year with severe weather events and hurricanes that 
often result in damage or loss to weather monitoring and forecasting 
equipment.
    I look forward to hearing the testimony of our witnesses.

    Chairman Lampson. We do have one small problem. I think we 
can get our opening statements out of the way in convenient 
time, but we will have a vote that will come up probably 
sometime in the next five, maybe less than 10, minutes. We have 
got adequate time, I believe, to have both of your statements 
made, and then if you all will forgive us, we will run off and 
make our way back as quickly as we possibly can.
    It is a pleasure to introduce the excellent panel of 
witnesses that we have with us here this afternoon. Vice 
Admiral Conrad Lautenbacher is the Under Secretary of Commerce 
for Oceans and Atmosphere and Administrator of NOAA and Dr. Len 
Pietrafesa is the Associate Dean of External Affairs and 
Professor of Ocean and Atmospheric Sciences at North Carolina 
State University and is the former Chair of NOAA's Science 
Advisory Board.
    So we welcome both of you very much. You will each have 
five minutes for your spoken testimony. Your full, written 
testimony will be included in the record for the hearing. And 
when each of you have completed your testimony, we will begin 
with questions, and each Member will have five minutes to 
question the panel and we will rotate as normal.
    Admiral Lautenbacher, would you please begin?

STATEMENT OF VICE ADMIRAL CONRAD LAUTENBACHER, JR. (U.S. NAVY, 
 RET.), UNDER SECRETARY OF COMMERCE FOR OCEANS AND ATMOSPHERE 
   AND NOAA ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Vice Admiral Lautenbacher. Thank you, Mr. Chairman. Good 
afternoon, Mr. Chairman, Ranking Member Inglis, members of the 
staff. We appreciate very much this opportunity to be able to 
testify on behalf of the 2008 budget. We thank this committee 
for its continuing support. This committee has been very 
important to the ability of NOAA to carry out its mission, and 
we look forward to working with you to build the best budget 
possible for the country.
    This year I think everyone is aware NOAA is celebrating 200 
years of science, service, and stewardship to the Nation. The 
precursor of NOAA was the first scientific agency in the United 
States Government, seen fit to be brought into existence by 
President Thomas Jefferson and the Congress in those days. 
Since that point, we have been joined by the Weather Bureau, 
Commission on Fish and Fisheries in the 1870's and up until 
today where we have satellites and a fabulous research branch 
that works for us. So it has been a long road. Our folks are 
very proud of their contributions, and we are looking forward 
to celebrating this legacy this year.
    I have a couple of details on the 2008 request. Allow me to 
mention just a couple of the accomplishments that have occurred 
in the past year thanks to the support of Congress. In June, 
the President designated the Northwestern Hawaiian Islands as a 
Marine National Monument encompassing nearly 140,000 square 
miles. This monument includes 4,500 square miles of relatively 
undisturbed coral reef habitat that is home to more than 7,000 
species, a quarter of which do not exist anywhere else on 
Earth. And for the first time, NOAA will play a leading role in 
managing a national monument. It is an exciting and important 
opportunity for NOAA.
    We have also increased the security of our nation's folks 
living around the coastlines. We have a combination of new 
tsunami buoys and around-the-clock warning capability thanks to 
support from Congress. NOAA has 23 special buoys around the 
U.S. coast. Plans call for the U.S. Tsunami Warning Network to 
include 39 buoy stations by mid-summer 2008 with 32 in the 
Pacific and seven in the Atlantic. NOAA has also achieved 24-7 
operation of the Nation's two Tsunami Warning Centers located 
in Alaska and Hawaii which provide warnings and alerts to our 
nation and to the nations in the Pacific rim.
    NOAA collaborated with federal partners to place a NOAA 
weather radio in every public school in America, and the 
support of this committee has been very important to NOAA 
weather radio. That is more than 97,000 radios to aid in 
protecting our children. Our weather radios, All Hazards, 
provide automatic alerts for severe weather, man-made disasters 
such as chemical spills and terrorism threats as well as Amber 
Alerts for missing children.
    My written testimony presents the details of the budget. It 
is aligned in several priority areas. First of all, sustaining 
critical operations and then supporting our U.S. Ocean Action 
Plan mentioned previously, improving weather warnings and 
forecasts and climate monitoring and research are all important 
to today's society and economy. I will highlight just a few of 
the key increases in these areas.
    The total request is $3.8 billion which represents a $131 
million, or 3.4 percent, increase over the fiscal year 2007 
request. But as mentioned, it is a $96 million decrease from 
the fiscal year 2006 enacted level. The budget does provide 
modest new investments in priority areas while maintaining 
critical services. Approximately $54 million in net increases 
will support our workforce which is mentioned again as a 
critical part of what we provide to the country and pay for 
regular inflation costs. Continued implementation of the 
President's Ocean Action Plan, which follows on the Ocean 
Policy Commission and the Pew Commission, remains a priority 
for the Administration. As mentioned, the budget requests $123 
million increase to support the plan, $60 million for ocean 
science and research, $38 million to protect and restore marine 
and coastal areas, and $25 million to ensure sustainable use of 
our oceans. And specifically the budget requests $16.4 million 
for the Integrated Ocean Observing System, or IOOS, for 
development of regional systems and improved data management 
and communications. It also includes $8 million for enforcement 
and management activities in the newly designated Northwestern 
Hawaiian Islands National Marine Monument.
    To improve weather forecast and warnings, our budget 
requested an increase of $5 million to support operations and 
maintenance of hurricane data buoys and research on hurricane 
intensity that will ultimately save lives. More than $23 
million in total is requested to continue strengthening the 
U.S. Tsunami Warning System, which is including an increase of 
about $2 million for additional deep-ocean buoy stations. 
Climate monitoring and research increases of $9.4 million will 
support the development of an integrated drought early warning 
forecast system that will enhance our nation's food security by 
providing earlier and more accurate drought forecasts.
    I appreciate the efforts again of this committee in passing 
the NIDIS legislation last year.
    Let me conclude briefly by talking briefly about two 
oversight issues which I know are of importance to this 
committee and certainly to NOAA. There have been many 
challenges with our satellite programs and NPOESS in 
particular. Let me assure the Committee that I am doing 
everything, along with my organization, to ensure this program 
stays on track. We have made numerous personnel changes, we are 
implementing every recommendation from the GAO and the 
Department of Commerce Inspector General and I meet with the 
Under Secretary of the Air Force and the NASA Administrator 
once a quarter and more often, if necessary, to review this 
program. Satellites are complex and risky tools, but they are 
vital to all aspects of NOAA's mission.
    I also want to assure the Committee that the Department of 
Commerce is in the final stage of updating its communication 
policy which will ensure our scientists have, for the 
foreseeable future, the freedom to speak openly, communicate 
their science to the media and public. Open and free scientific 
debate is an important principle that I maintain personally and 
within the organization.
    Again, thank you for this opportunity to present the 
budget. I look forward to your questions.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]
      Prepared Statement of Vice Admiral Conrad Lautenbacher, Jr.
    Madam Chairwoman and Members of the Subcommittee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration (NOAA). Your continued support for our programs is 
appreciated as we work to improve our products and services for the 
American people. Thank you for the opportunity to testify on the 
President's Fiscal Year (FY) 2008 Budget Request for NOAA.
    The FY 2008 President's Budget supports NOAA's priority to advance 
mission-critical services. The FY 2008 request is $3.815 billion, which 
represents a $131 million or 3.4 percent increase over the FY 2007 
request. This request includes the level of resources necessary to 
carry out NOAA's mission, which is to understand and predict changes in 
the Earth's environment, and conserve and manage coastal and marine 
resources to meet our nation's economic, social and environmental 
needs. At NOAA we work to protect the lives and livelihoods of 
Americans, and provide products and services that benefit the economy, 
environment, and public safety of the Nation. Before I discuss the 
details of our FY 2008 budget request, I would like to briefly 
highlight some of NOAA's notable successes from the past fiscal year 
(2006).

FY 2006 ACCOMPLISHMENTS

President Designates Largest Fully-Protected Marine Area on Earth

    Recognizing the continuing need for resource protection, President 
Bush designated the Northwestern Hawaiian Islands as a marine national 
monument on June 15, 2006. Encompassing nearly 140,000 square miles, 
the monument covers an area larger than all of our national parks put 
together, including 4,500 square miles of relatively undisturbed coral 
reef habitat that is home to more than 7,000 species. The creation of 
the largest fully-protected marine area in the world is an exciting 
achievement and recognizes the value of marine resources to our nation.

Successful Launch of NOAA Satellite GOES-13 and New Satellite 
                    Operations Facility Ensure Continuity of Improved 
                    Data Collection

    On May 24, 2006, officials from NOAA and the National Aeronautics 
and Space Administration (NASA) confirmed that a new geostationary 
operational environmental satellite, designed to track hurricanes and 
other severe weather impacting the Nation, successfully reached orbit. 
Upon reaching final orbit, the satellite was renamed GOES-13. This is 
the first in a new series of satellites featuring a more stable 
platform enabling improved instrument performance. NOAA instruments 
were also launched on the European MetOp-A polar-orbiting satellite in 
October 2006. Combined with NOAA and Department of Defense (DOD) 
operational satellites, MetOp-A will help provide global data for 
improving forecasts of severe weather, disaster mitigation, and 
monitoring of the environment. This launch ushered in a new era of 
U.S.-European cooperation in environmental observing.
    In 2006, NOAA satellite operations and data processing groups began 
moving into the new NOAA Satellite Operations Facility (NSOF). The NSOF 
will house the NOAA satellite command and control functions and data 
and distribution activities that are central to NOAA's mission. The 
NSOF will also house the U.S. Mission Control Center for the Search and 
Rescue Satellite-Aided Tracking (SARSAT) program and the National Ice 
Center (NIC), a joint NOAA/DOD mission to track ice floes and issue 
warnings to the Nation's maritime force. The NSOF will become fully 
operational in Spring 2007.

Enhancements to NOAA's Fleet of Ships and Aircraft

    Significant progress is being made in modernizing NOAA's fleet. 
NOAA took delivery of the Fisheries Survey Vessel (FSV) HENRY B. 
BIGELOW, the second of four new FSV, on July 25, 2006. The BIGELOW has 
high-tech capabilities that make it one of the world's most advanced 
fisheries research ships. These ships will be able to perform hydro-
acoustic fish surveys and conduct bottom and mid-water trawls while 
running physical and biological oceanographic sampling during a single 
deployment--a combined capability unavailable in the private sector 
that will enable research and assessment to be carried out with greater 
accuracy and cost efficiency. NOAA also took delivery from the Navy of 
a ``retired'' P-3 aircraft in response to the hurricane supplemental 
bill attached to the FY 2006 Defense appropriations legislation. 
Rehabilitation of the P-3 is expected to be completed by the start of 
the 2008 hurricane season.

Magnuson-Stevens Fishery Conservation and Management Act Reauthorized

    Congress reauthorized the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA) in December, 2006, and it was signed into law by 
President Bush on January 12, 2007. The MSA is the guiding legislation 
that authorizes fishery management activities in federal waters. 
Enactment of this bill was one of the top priorities of the U.S. Ocean 
Action Plan. The reauthorized MSA strengthens NOAA's ability to end 
overfishing, rebuild fish stocks, and work collaboratively on 
conservation.

U.S. Tsunami Warning System Improved

    NOAA designed easy to deploy Deep-ocean Assessment and Reporting of 
Tsunamis (DART)-II technology, which provides two-way communication 
between the buoys and NOAA facilities. This technology allows engineers 
to troubleshoot these systems from the lab and repair the systems 
remotely when possible. This functionality can minimize system downtime 
and save money by not requiring a ship be deployed to make minor 
repairs. The U.S. Tsunami Warning Program also created tsunami impact 
forecast models for nine major coastal communities, providing 
information for inundation maps. With the December 11, 2006 deployment 
of DART #23 in the Western Pacific Ocean, NOAA achieved initial 
operating capability (IOC) of the planned expanded U.S. Tsunami Warning 
Program. NOAA also achieved full 24/7 operations of the Nation's two 
Tsunami Warning Centers. Plans call for the U.S. Tsunami Warning 
Network to total 39 DART-II buoy stations by mid-summer 2008 (32 in the 
Pacific, seven in the Atlantic).
    NOAA also continued to monitor sea height through a network of 
buoys and tide gauges, collecting information critical to understanding 
the time of arrival and the height of tsunami waves. In 2006, NOAA 
completed the installation of eight new National Water Level 
Observation Network (NWLON) stations to fill gaps in the detection 
network, bringing the two-year total to 15. The 15 stations were 
installed in California, Oregon, Washington, Alaska, Puerto Rico, and 
the Virgin Islands. These and other new stations brought the NWLON to 
200 stations by the end of calendar year 2006. In addition, NOAA 
continued to upgrade the entire NWLON to real-time status by replacing 
over 50 data collection platforms.

Red Tide Monitoring Protects Human Health and Coastal Economics in New 
                    England

    In the wake of the 2005 New England red tide crisis that forced the 
closure of most shell fisheries in the region, NOAA provided additional 
emergency funding in 2006 to provide timely and critical information to 
state managers to build upon long-term research supported by the 
Ecology and Oceanography of Harmful Algal Bloom, and Monitoring and 
Event Response for Harmful Algal Bloom programs at the Woods Hole 
Oceanographic Institution, as well as other partner institutions. In 
the spring of 2006, NOAA-sponsored monitoring detected rapid 
escalations of the bloom, which subsequently closed shell fisheries in 
Massachusetts, New Hampshire and Maine. Additional NOAA efforts allowed 
New England managers to make more strategic sampling and shellfish bed 
closures/openings to protect human health and minimize the economic 
impacts of harmful algal blooms.

National Estuarine Research Reserve System Adds 27th Reserve

    On May 6, 2006, Commerce and Congressional officials dedicated the 
newest site in the National Estuarine Research Reserve System in Port 
Aransas, TX, bring the total to 27 reserves. This new reserve 
introduces a new biogeographic area type into the system, and adds 
185,708 acres of public and private land and water. The reserves are 
federal-State partnerships, where NOAA provides national program 
guidance and operational funding. These reserves serve as living 
laboratories for scientists and provide science-based educational 
programs for students and the public.

Wide Application Potential of Unmanned Aircraft Systems Demonstrated

    In 2006, NOAA worked with federal and private sector partners to 
successfully demonstrate Unmanned Aircraft Systems (UAS) technology. 
NOAA is interested in UAS as a tool to explore and gather data to help 
us reach new heights in our ability to understand and predict the world 
in which we live. Use of UAS could help NOAA achieve our mission goals 
and provide cost-effective means to: enforce regulations over NOAA's 
National Marine Sanctuaries, conduct long endurance flights for 
weather, conduct research over areas that pose significant risks to 
pilots, validate satellite measurements, provide counts of marine 
mammal populations, monitor atmospheric composition and climate, and 
hover above hurricanes and gather critical data for input into 
hurricane models. NOAA will continue to examine how UAS can assist in 
the collection of environmental data.

Protecting Habitat Essential to Fish

    In 2006, over 500,000 square miles of U.S. Pacific Ocean habitats 
were protected from damage by fishing practices, particularly bottom-
trawling. Combined, these areas are more than three times the size of 
all U.S. national parks. The historic protections, implemented by NOAA 
with the support and advice of the regional fishery management 
councils, fishing industry, and environmental groups, made the 
protection of essential fish habitat and deep coral and sponge 
assemblages a significant part of management efforts to conserve 
fisheries in the Pacific Ocean.

NOAA Continues Efforts to Assist with Gulf Coast Recovery Following 
                    2005 Hurricanes Katrina and Rita

    In addition to providing the forecasts and immediate response 
assistance in 2005, following Hurricanes Katrina and Rita, NOAA has 
continued to assist with Gulf Coast recovery efforts in FY 2006.
    NOAA ships and aircraft provided critical response and recovery 
capabilities in the aftermath of Hurricanes Katrina and Rita. NOAA Ship 
THOMAS JEFFERSON completed obstruction surveys in the Gulf of Mexico so 
that busy ports and shipping lanes could be re-opened to traffic. 
NOAA's Citation aircraft flew post-storm damage assessment surveys 
along the coasts of the Gulf States. This imagery was downloaded on the 
NOAA website, enabling emergency managers, local officials and average 
citizens to inventory damage and prioritize recovery efforts.
    NOAA mounted a multi-pronged effort to address fishery-related 
impacts in the Gulf of Mexico in FY 2006. In August, 2006, NOAA awarded 
$128 million to the Gulf States Marine Fisheries Commission to reseed 
and restore oyster beds and conduct fisheries monitoring in the Gulf. 
In addition, NOAA Ship NANCY FOSTER conducted a seafood contamination 
survey for NOAA Fisheries near the Mississippi Delta to spot potential 
safety issues. This research monitored the seafood coming in from the 
Gulf to ensure it was safe for public consumption (free of PCBs, 
pesticides, and fossil fuels).

Collaboration Enables a NOAA Weather Radio to be Placed in Every Public 
                    School in America

    NOAA and the Departments of Homeland Security and Education worked 
to get 97,000 NOAA weather radios placed in every public school in 
America to aid in protecting our children from hazards, both natural 
and man-made. In many cases, local Weather Forecast Office staff 
provided expertise in programming the radios to select specific hazards 
and geographic areas for which the school wanted to be alerted. This 
multi-month effort required close collaboration between the Departments 
of Homeland Security, Education, and Commerce (NOAA). This effort 
enabled schools to connect to part of the Nation's Emergency Alert 
System and greatly increases environmental situational awareness and 
public safety.

World Ocean Database 2005

    NOAA's National Oceanographic Data Center (NODC) released a major 
upgrade to its World Ocean Database product. World Ocean Database 2005 
(WOD05) is the largest collection of quality-controlled ocean profile 
data available internationally without restriction. All data are 
available on-line for public use. Data are available for 29 ocean 
variables, including plankton data. The database includes an additional 
900,000 temperature profiles not available in its predecessor. The 
database provides the ocean and climate science communities with 
research-quality ocean profile data sets that will be useful in 
describing physical, chemical and biological parameters in the ocean, 
over both time and space. This database is a crucial part of the 
Integrated Ocean Observing System and the Global Earth Observation 
System of Systems.

New Arctic Observatory Established for Long-Term Climate Measurements

    NOAA's Earth System Research Laboratory in Boulder, Colorado, in 
conjunction with our Canadian counterparts, established a research site 
located on Ellesmere Island to make long-term climate measurements of 
Arctic clouds and aerosols. This observatory supports NOAA's activities 
for the 2007-2008 International Polar Year.

NOAA Scientists Identify Carbon Dioxide Threats to Marine Life

    A report co-authored by NOAA research scientists documents how 
carbon dioxide is dramatically altering ocean chemistry and threatening 
the health of marine organisms. The research also uncovered new 
evidence of ocean acidification in the North Pacific. The report 
resulted from a workshop sponsored by NOAA, the National Science 
Foundation, and the U.S. Geological Survey.

First Operational Satellite Products for Ocean Biology

    In June, 2006, NOAA began to process and distribute ocean biology 
products for U.S. coastal waters, using satellite observations. This 
activity represents a successful transition of NASA research to NOAA 
operations. These products (e.g., chlorophyll concentration) represent 
the first satellite-derived biological products generated by NOAA for 
coastal and open ocean waters. These products are useful in detecting 
and monitoring harmful algal blooms, assessing regional water quality, 
and locating suitable habitat for fish and other important marine 
species. Development of these products prepares NOAA for generating and 
distributing ocean biology products in the global ocean after 2010.

FY 2008 BUDGET REQUEST HIGHLIGHTS

Supporting the U.S. Ocean Action Plan

    Coastal and marine waters help support over 28 million jobs, and 
the value of the ocean economy to the United States is over $115 
billion. The commercial and recreational fishing industries alone add 
over $48 billion to the national economy each year. The FY 2008 
President's Budget requests $123 million in increases for NOAA to 
support the President's U.S. Ocean Action Plan. This oceans initiative 
includes $38 million to protect and restore marine and coastal areas, 
$25 million to ensure sustainable use of ocean resources, and $60 
million to advance ocean science and research.
    New investments in ocean science are aimed at monitoring and better 
understanding marine ecosystems. Increased funding of $16 million is 
included for the Integrated Ocean Observing System to enhance models 
and information products through development of regional systems and 
improved data management and communications. A total increase of $20 
million is provided for NOAA research on four near-term priorities 
established through the national Ocean Research Priorities Plan. An 
additional $8 million will support exploring and defining areas of the 
continental shelf that are adjacent to, but currently outside of, U.S. 
jurisdiction. This work will enable a U.S. claim to these areas and the 
potential $1.2 trillion worth of resources they are estimated to 
contain.
    The FY 2008 President's Budget builds on NOAA's strong record of 
investing in projects that embody the spirit of cooperative 
conservation. Projects to protect and restore valuable marine and 
coastal areas include funding of $8 million for enforcement and 
management activities in the recently designated Northwestern Hawaiian 
Islands Marine National Monument, and $10 million for a project to 
restore nearly 1,000 stream miles of habitat for endangered Atlantic 
salmon and other fish species. A total of $15 million is provided for 
the Coastal and Estuarine Land Conservation Program, to assist State 
and local partners in the purchase of high priority coastal or 
estuarine lands or conservation easements. Increased funding of $3 
million is also included to support Klamath River salmon recovery 
projects. Finally, an increase of $5 million will support competitive 
grant programs focused on the Gulf of Mexico Alliance coastal resource 
priorities, as identified in the Governors' Action Plan for Healthy and 
Resilient Coasts.
    Finally, the FY 2008 NOAA budget provides support to ensure 
sustainable access to seafood through development of offshore 
aquaculture and better management of fish harvests. The Administration 
will propose legislation to establish clear regulatory authority and 
permitting processes for offshore aquaculture. An increase of $3 
million is included to establish the regulatory framework to encourage 
and facilitate development of environmentally sustainable commercial 
opportunities. In addition, $20 million in increases are provided to 
improve management of fish harvests, including $6.5 million in 
increases to implement the new and expanded requirements of the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act of 2006, $3 million for observer programs, and $6 million for 
market-based approaches to fisheries management. Market-based 
approaches--such as Limited Access Privilege Programs (LAPPs) that 
provide exclusive privileges to harvest a quantity of fish--move 
fisheries management away from cumbersome and inefficient regulatory 
practices and have been shown to lead to lengthened fishing seasons, 
improved product quality, and safer conditions for fishermen. The 
Administration has set a goal of doubling the number of LAPPs in use by 
the year 2010, and the increased funding of $6 million for LAPPs in 
this request supports that goal. Finally, an additional $2 million in 
funding is provided to meet the management challenges of assessing and 
mitigating the impacts of sound from human activities, such as national 
defense readiness and energy exploration and development, on marine 
mammals.

Sustaining Critical Operations

    As always, I support NOAA's employees by requesting adequate 
funding for our people, infrastructure, and facilities. NOAA's core 
values are science, service, and stewardship, as well as people, 
ingenuity, integrity, excellence, and teamwork. Our ability to serve 
the Nation and accomplish the missions outlined below is determined by 
the quality of our people and the tools they employ. Our facilities, 
ships, aircraft, environmental satellites, data-processing systems, 
computing and communications systems, and our approach to management 
provide the foundation of support for all of our programs. 
Approximately $54.6 million in net increases will support our workforce 
inflation factors, including $44.9 million for salaries and benefits 
and $6.6 million for non-labor related adjustments such as fuel costs.
    This year, we focus on the operations and maintenance of NOAA 
vessels and necessary enhancements to marine safety, facility repair, 
and modernization. A funding increase of $8.3 million will be used to 
support marine operations and equipment, including $5.6 million for new 
vessel operations and maintenance and $1.7 million to implement a more 
effective maritime staff rotation and safety enhancements. This funding 
will support the operations maintenance for the OKEANOS EXPLORER, 
NOAA's first dedicated Ocean Exploration vessel. Increased funding of 
$5.5 million will support operations and maintenance for NOAA's third 
P-3 aircraft. NOAA is also moving forward this year with increases in 
funding for unmanned vehicles, with $0.7 million in support of 
Autonomous Underwater Vehicles (AUV) and an increase of $3 million in 
funding to support the further use of Unmanned Aircraft Systems (UAS). 
With this increase, NOAA will evaluate the benefits and potential of 
using UAS to collect data crucial for climate models, weather research, 
fisheries enforcement, and coastal zone studies.
    The backbone of the NOAA infrastructure is our integrated Earth 
observation effort. NOAA, NASA and the Office of Science and Technology 
Policy (OSTP) serve as the lead agencies for the Federal Government in 
developing our U.S. integrated Earth observing strategy. In addition, I 
serve as one of four intergovernmental co-chairs of the effort to 
develop the Global Earth Observation System of Systems. Building and 
maintaining state of the art satellite programs is an important 
component of NOAA's integrated observation efforts. An increase of $25 
million in the Polar Operational Environmental Satellite (POES) program 
continues support for development and acquisition of polar-orbiting 
weather satellites to improve weather forecasting and our understanding 
of the climate. This increase will allow NOAA to complete acquisition 
of this series of polar satellites and install and maintain instruments 
important to U.S. Government interests on the European MetOp partner 
satellite. Following the completion of the POES program, it will be 
replaced by the tri-agency National Polar-orbiting Operational 
Environmental Satellite System (NPOESS). This transition is expected in 
2013. We will continue to partner with the Europeans on their MetOp 
satellite as NPOESS replaces our current POES satellites.

Improving Weather Warnings & Forecasts

    Severe weather events cause $11 billion in damages and 
approximately 7,000 weather-related fatalities yearly in the United 
States. Nearly one-third of the economy is sensitive to weather and 
climate. Realizing this, NOAA seeks to provide decision makers with key 
observations, analyses, predictions, and warnings for a variety of 
weather and water conditions to help protect the health, lives, and 
property of the United States and enhance its economy. Increased 
funding of $2 million will accelerate research to improve hurricane 
intensity forecasts through targeted research for new models and 
observations. Another $3 million will support the operations and 
maintenance of 15 hurricane data buoys in the Caribbean, Gulf of 
Mexico, and the Atlantic Ocean. Finally, NOAA continues to strengthen 
the U.S. Tsunami Warning Program with an increase of $1.7 million to 
deploy additional deep ocean buoy (DART) stations. Strengthening the 
U.S. Tsunami Warning Program provides effective, community-based 
tsunami hazard mitigation actions including required inundation flood 
mapping, modeling, forecasting efforts and evacuation mapping, and 
community-based public education/awareness/preparedness for all U.S. 
communities at risk.

Climate Monitoring & Research

    Society exists in a highly variable climate system, and major 
climatic events can impose serious consequences on society. The FY 2008 
Budget Request contains investments in several programs aimed at 
increasing our predictive capability, enabling NOAA to provide our 
customers (farmers, utilities, land managers, weather risk industry, 
fisheries resource managers and decision makers) with assessments of 
current and future impacts of climate events such as droughts, floods, 
and trends in extreme climate events. NOAA is building a suite of 
information, products and services to enable society to understand, 
predict, and respond to changing climate conditions. These activities 
are part of the U.S. Climate Change Science Program and are being 
conducted in collaboration and coordination with our important 
interagency partners including NASA, NSF, and the Department of Energy. 
We will continue to expand and improve access to global oceanic and 
atmospheric data sets for improved climate prediction and development 
of climate change indicators. NOAA will support the critical National 
Integrated Drought Information System with increases of $4.4 million to 
develop an integrated drought early warning and forecast system to 
provide earlier and more accurate forecasts of drought conditions. This 
request also supports the Administration's efforts to create a U.S. 
Integrated Earth Observation System. With an increase of $0.9 million, 
we will support research on water vapor to refine climate models. In 
support of the Ocean Research Priorities Plan, NOAA will enhance our 
understanding of the link between ocean currents and rapid climate 
change with an increase of $5 million in support of research on this 
topic. Finally, an additional $1 million in funding will provide 
additional computational support for assessing abrupt climate change.

Critical Facilities Investments

    The FY 2008 President's Budget Request also includes important 
increases for critical facilities, necessary to provide a safe and 
effective working environment for NOAA's employees.
    Of particular importance this year is the $3 million funding 
increase to begin design of a replacement facility at the La Jolla 
Southwest Fisheries Science Center. NOAA is also requesting $20.3 
million for continued construction of the new Pacific Region Center on 
Ford Island in Honolulu, Hawaii. This increase in funding will allow 
NOAA to complete the exterior renovation of one of the Ford Island 
buildings, a crucial next step in the construction process.

CONCLUSION

    NOAA's FY 2008 Budget Request provides essential new investments in 
our priority areas while maintaining critical services, reflecting 
NOAA's vision, mission, and core values. The work NOAA accomplished in 
2006 impacted every U.S. citizen. We will build on our successes from 
last year, and stand ready to meet the challenges that will surface in 
FY 2008 and beyond. NOAA is dedicated to enhancing economic security 
and national safety through research and accurate prediction of weather 
and climate-related events, and to providing environmental stewardship 
of our nation's coastal and marine resources. That concludes my 
statement, Madam Chairwoman. Thank you for the opportunity to present 
NOAA's FY 2008 Budget Request. I am happy to respond to any questions 
the Committee may have.

         Biography for Vice Admiral Conrad C. Lautenbacher, Jr.
    A native of Philadelphia, Pa., retired Navy Vice Admiral Conrad C. 
Lautenbacher, Ph.D., is serving as the Under Secretary of Commerce for 
Oceans and Atmosphere. He was appointed Dec. 19, 2001. Along with this 
title comes the added distinction of serving as the eighth 
Administrator of the National Oceanic and Atmospheric Administration. 
He holds an M.S. and Ph.D. from Harvard University in applied 
mathematics.
    Lautenbacher oversees the day-to-day functions of NOAA, as well as 
laying out its strategic and operational future. The agency manages an 
annual budget of $4 billion. The agency includes, and is comprised of, 
the National Environmental Satellite, Data and Information Services; 
National Marine Fisheries Service; National Ocean Service; National 
Weather Service; Oceanic and Atmospheric Research; Marine and Aviation 
Operations; and the NOAA Corps, the Nation's seventh uniformed service. 
He directed an extensive review and reorganization of the NOAA 
corporate structure to meet the environmental challenges of the 21st 
century.
    As the NOAA Administrator, Lautenbacher spearheaded the first-ever 
Earth Observation Summit, which hosted ministerial-level representation 
from several dozen of the world's nations in Washington July 2003. 
Through subsequent international summits and working groups, he worked 
to encourage world scientific and policy leaders to work toward a 
common goal of building a sustained Global Earth Observation System of 
Systems (GEOSS) that would collect and disseminate data, information 
and models to stakeholders and decision-makers for the benefit of all 
nations individually and the world community collectively. The effort 
culminated in an agreement for a 10-year implementation plan for GEOSS 
reached by the 55 member countries of the Group on Earth Observations 
at the Third Observation Summit held in Brussels February 2005.
    He also has headed numerous delegations at international 
governmental summits and conferences around the world, including the 
U.S. delegation to 2002 Asia-Pacific Economic Cooperation Ocean 
Ministerial Meeting in Korea, and 2002 and 2003 meetings of the World 
Meteorological Organization and Intergovernmental Oceanographic 
Commission in Switzerland and France, as well as leading the Commerce 
delegation to the 2002 World Summit on Sustainable Development in South 
Africa.
    Before joining NOAA, Lautenbacher formed his own management 
consultant business, and worked principally for Technology, Strategies 
& Alliances Inc. He was president and CEO of the Consortium for 
Oceanographic Research and Education (CORE). This not-for-profit 
organization has a membership of 76 institutions of higher learning and 
a mission to increase basic knowledge and public support across the 
spectrum of ocean sciences.
    Lautenbacher is a graduate of the U.S. Naval Academy (Class of 
1964), and has won accolades for his performance in a broad range of 
operational, command and staff positions both ashore and afloat. He 
retired after 40 years of service in the Navy. His military career was 
marked by skilled fiscal management and significant improvements in 
operations through performance-based evaluations of processes.
    During his time in the Navy, he was selected as a Federal Executive 
Fellow and served at the Brookings Institution. He served as a guest 
lecturer on numerous occasions at the Naval War College, the Army War 
College, the Air War College, The Fletcher School of Diplomacy, and the 
components of the National Defense University.
    His Navy experience includes tours as Commanding Officer of USS 
HEWITT (DD-966), Commander Naval Station Norfolk; Commander of Cruiser-
Destroyer Group Five with additional duties as Commander U.S. Naval 
Forces Central Command Riyadh during Operations Desert Shield and 
Desert Storm, where he was in charge of Navy planning and participation 
in the air campaign. As Commander U.S. Third Fleet, he introduced joint 
training to the Pacific with the initiation of the first West Coast 
Joint Task Force Training Exercises (JTFEXs).
    A leader in the introduction of cutting-edge information 
technology, he pioneered the use of information technology to mount 
large-scale operations using sea-based command and control. As 
Assistant for Strategy with the Chief of Naval Operations Executive 
Panel, and Program Planning Branch Head in the Navy Program Planning 
Directorate, he continued to hone his analytic skills resulting in 
designation as a specialist both in Operations Analysis and Financial 
Management. During his final tour of duty, he served as Deputy Chief of 
Naval Operations (Resources, Warfare Requirements and Assessments) in 
charge of Navy programs and budget.
    Lautenbacher lives in Northern Virginia with his wife Susan who is 
a life-long high school and middle school science teacher.

    Chairman Lampson. Thank you, Admiral Lautenbacher. I would 
now call on Dr. Pietrafesa.

  STATEMENT OF DR. LEN PIETRAFESA, ASSOCIATE DEAN, OFFICE OF 
EXTERNAL AFFAIRS; PROFESSOR OF OCEAN AND ATMOSPHERIC SCIENCES, 
 COLLEGE OF PHYSICAL AND MATHEMATICAL SCIENCES, NORTH CAROLINA 
                        STATE UNIVERSITY

    Dr. Pietrafesa Mr. Chairman and Ranking Member Inglis, 
thank you for this opportunity to participate in this hearing 
regarding NOAA and its budget proposal for fiscal year 2008.
    Today I am appearing on behalf of the Friends of NOAA 
Coalition consisting of over 40 very diverse entities, all NOAA 
stakeholders. A copy of a letter sent by the Friends Coalition 
to this committee in support of an adequate budget for NOAA for 
fiscal year 2008 is attached to my testimony.
    At the $4.5 billion level, which is $15 per American 
annually, NOAA would be able to better serve our nation. The 
American people need and deserve the most comprehensive, 
objective, accurate, and timely environmental information 
possible. The value of these services to the Nation, save for 
D-Day, has never been greater.
    What is the broad brush economic importance of NOAA to the 
Nation? Department of Commerce statistics show that weather and 
climate sensitive industries account for more than one-third of 
the Nation's GDP. Seventy-five percent of the Nation's gross 
State product comes from the coastal States, and 50 percent of 
the Nation's economy derives from the coastal counties where 
NOAA roles support the significant economic activities. 
Annually there are 1.5 million highway accidents, and 700,000 
deaths that are weather related. $4.5 billion is lost annually 
just due to weather-related air traffic delays such as the 
3,600 canceled flights this past weekend. Investments in road 
and aviation, weather infrastructure, and research would 
greatly reduce these numbers and economic impacts.
    Total annual federal spending for weather information is 
about $25 per household. Aquaculture represents a $1 billion a 
year industry for U.S. fish farmers and $6 billion per year in 
retail sales. Yet, we presently import 80 percent of the fish 
we consume. As the Nation's appetite for seafood grows, the 
U.S. will need an additional $4.5 billion pounds per year. Here 
NOAA must lead this effort.
    The recently released NRC report, the Decadal Survey, 
points out that the U.S. Earth integrated observation 
capability is lacking and puts our nation's global economic 
competitiveness at risk. Lloyds of London has stated that we 
cannot afford to deny climate trends that may likely lead to 
$100 billion individual mega catastrophes in insured losses and 
that U.S. environmental observing assets and products that 
should be provided are crucial and critical to avoiding these 
industry-threatening costs. Long-term sustained aid is needed 
to quantify climate trends. Here the NOAA National Climatic 
Data Center's archive of data and information is critical for 
all federal agencies and for its huge economic worth to 
industry.
    But chronic under funding prevents us from capitalizing on 
new advances in knowledge, new technology, and innovative 
ideas; and in this context, disarray and delay in developing 
our Earth-observing systems makes no sense to me.
    The cost of an integrated ocean observing system that 
builds on the essential federal monitoring backbone in the 
coastal waters, including the Great Lakes, will be $250 million 
a year. But the value to the Nation of greatly improved 
forecasts, including ecological, will be in the many billions, 
tens of billions of dollars per year.
    I, along with the Pew Commission, the U.S. Commission on 
Ocean Policy and many members of the Friends Coalition, believe 
that an organic act would significantly strengthen NOAA. A 
comprehensive NOAA Organic Act should address the following key 
issues: management; assessment, production, operations and 
applications; and research with external partners and 
educational engagement of the public. As this committee knows, 
the idea of making NOAA into an independent agency is not new 
and is controversial. But OMB should assess the NOAA budget in 
the context of other major agencies and departments within its 
natural resource programs directorate. In this context, the 
linkages that exist between NOAA and NASA and NSF must be 
acknowledged and understood. Enactment of a NOAA Organic Act 
provides a useful forum for the consideration of such a 
proposal.
    In conclusion, the Friends of NOAA Coalition appreciates 
the severe budgetary constraints under which the Congress is 
working. However, we believe that the case for the NOAA budget 
is so compelling that we urge the Congress to support an 
appropriation of at least $4.5 billion and to support the 
legislation which would codify and strengthen the agency. The 
Friends Coalition is deeply grateful for the opportunity to 
participate in this hearing, and I would be happy to respond to 
any question you and the Members of the Committee might have.
    Thank you.
    [The prepared statement of Dr. Pietrafesa follows:]
                  Prepared Statement of Len Pietrafesa
    Mr. Chairman and Members of the Subcommittee--thank you for this 
opportunity to participate in this hearing regarding the National 
Oceanic and Atmospheric Administration (NOAA) and its budget proposal 
for fiscal year 2008.
    My name is Len Pietrafesa. I am a Professor of Ocean and 
Atmospheric Sciences and an Associate Dean at North Carolina State 
University. I am the immediate past chair of the NOAA Science Advisory 
Board, a member of the Board of Trustees of the University Corporation 
for Atmospheric Research and have been a Governor on the Board of the 
Consortium for Oceanographic Research and Education, Chair of the 
National Council on Ocean Affairs and Chair of the National Association 
of State Universities and Land Grant College Board on Oceans and 
Atmosphere.
    Today, I am appearing on behalf of the Friends of NOAA Coalition. 
The Coalition consists of over 40 different organizations, 
institutions, and groups from the academic community, the environmental 
community and the private sector, including such organizations as the 
Shipbuilders Council of America, the Consortium for Oceanographic 
Research and Education, the Reinsurance Association of America, the 
National Marine Sanctuary Foundation, the Joint Ocean Commission 
Initiative, the Alliance for Earth Observations, the University 
Corporation for Atmospheric Research, the National Association of 
Marine Laboratories, the Red Cross and The Weather Channel--just to 
name a few. Diverse though they are, each one of these organizations 
believes strongly in the effectiveness of NOAA and benefits from the 
products and services provided by the agency. I have attached to my 
testimony a copy of a recent letter sent by the Friends of NOAA 
Coalition to this and other Committees in support of an adequate budget 
for NOAA for FY 2008 (Attachment I).
    The Coalition was formed last year to educate and inform policy-
makers and the public about the important role NOAA plays as a supplier 
of environmental data and information products, as the world's greatest 
environmental data archiving agency, as a provider of environmental 
stewardship services, and as a leader in facilitating the conduct and 
integration of scientific research in support of the agency's critical 
missions. These missions are: to operationally, routinely forecast 
atmospheric, marine, space, aviation and road weather and climate, to 
understand and predict changes in the Earth's environment and to 
conserve and manage hydrologic, coastal and marine resources to meet 
our nation's economic, social and environmental needs.
    The services, products and research results provided by NOAA--from 
forecasting the weather to predicting coastal hazards to monitoring and 
anticipating solar disruptions of communications on Earth, to 
recognizing climate variability and forecasting climate, and from 
managing drought and wildfires and fisheries, to ensuring safe and 
healthy seafood, providing access to navigational information and vital 
community assistance and by facilitating scientific research that 
improves operations and applications--touch the lives of every American 
and every facet of our economy. If funded at the $4.5 billion level 
($15 per person annually) as recommended by the House Oceans Caucus and 
this Coalition, NOAA would be able to continue serving the extensive 
and varied interests and needs of our nation. The American people need 
and deserve the most comprehensive and timely environmental information 
possible. The value of objective, timely, and accurate environmental 
information (save for D-Day) has never been greater.
    Significant events in recent years--the devastating tsunami 
following the Southeast Asian earthquake in 2004, the extent and 
ferocity of the 2004 and 2005 hurricane seasons, and the persistence 
and impact of the prolonged drought in the western United States--all 
underscore the importance of NOAA's mission to the Nation and the 
world. NOAA's National Weather Service and National Hurricane Center 
issued its forecast for Hurricane Katrina in a very timely manner--a 
forecast that probably saved many tens of thousands of lives. Moreover, 
it is the integration of NOAA's wide range of activities that allowed 
the agency to deliver such valuable life-saving services and 
information to our citizens. This integrated system includes satellites 
in space, buoys at sea, coastal and ocean observatories, weather 
stations found in every state of the Nation with a national radar 
network that is the envy of the world, and the people who provide life 
saving information to those with responsibility for the public's safety 
at State and local levels.
    A wide variety of government agencies, professional and community 
organizations, and private industry have a vested interest in NOAA's 
ability to meet its mission. Each has its respective role in being 
responsive and effective in serving the Nation's needs for economic 
strength, environmental vitality, and human health and thus relies on 
services from NOAA. As an agency, NOAA has responsibilities for 
maintaining and improving the viability of marine and coastal 
ecosystems, for delivering valuable weather, climate, and water 
information and services, for understanding the science and 
consequences of climate change, and for supporting and enhancing the 
global commerce and transportation upon which we all depend. To do so 
successfully in today's ever changing world, it must have strong 
Presidential and Congressional support and work in concert with its 
partners and stakeholders in Federal, State, and local governments and 
private organizations.

The Importance of NOAA to the Nation

    Let me paint a picture of the economic importance of NOAA to the 
Nation, garnering high returns and greatly reducing losses relative to 
the overall investment in the agency. According to statistics published 
by the Department of Commerce last spring, weather and climate 
sensitive industries, both directly and indirectly, account for about 
one-third of the Nation's GDP ranging from finance, insurance, and real 
estate to services, retail and wholesale trade and manufacturing. 
Industries directly impacted by atmospheric, space and marine weather 
such as agriculture, construction, air, highway and sea travel, energy 
distribution, and outdoor recreation account for nearly 10 percent of 
the Nation's GDP. Six billion dollars is lost annually in economic 
efficiencies as a result of air traffic delays, of which 70 percent is 
attributed to weather; such as the 3600 flights canceled this past 
Saturday due to the ice and snow storm that pummeled the Northeast. 
Approximately seven thousand five hundred deaths and 1.5 million 
highway accidents occur annually across the Nation that are weather 
related. Total annual federal spending for weather information is about 
$25 per household (including aviation and defense, in addition to 
NOAA), which produces an annual benefit-cost ratio of 4.4 to one for 
U.S. households alone or net national benefits of $8.8 billion a year. 
This does not include benefits in agriculture, transportation, 
construction or benefits to households in other countries that rely on 
weather information from the United States.
    A report about to be issued (by the Centric Consulting Group of 
Savoy, IL) documents an assessment on the value of NOAA to various 
sectors of our society. Using temperature information from the National 
Climatic Data Center, the Homebuilders Association was able to adjust 
its building foundation depth code, resulting in an industry savings of 
$250 M/year. The value of data from GOES-R satellite sensors to the 
U.S. economy includes such sectors as aviation weather, the power 
industry, crop irrigation, recreational boating, tropical cyclone 
forecasting and thus emergency and health and risk management sectors.
    NOAA's role as the primary management agency for our oceans and 
coasts also helps support the significant economic activity in these 
regions. Seventy-five percent of the Nation's Gross State Product came 
from the coastal states in 2003. Almost half of the national economy 
came from the coastal watershed counties, and more than one-third came 
from those counties in which states operate their Coastal Zone 
Management programs. The near shore area, which is four percent of the 
Nation's land, produces more than 11 percent of the Nation's economic 
output. The portion of the U.S. economy that depends directly on the 
ocean is also large, with 2.2 million people employed and $197 billion 
in output (gross state product) in 2003. Aquaculture represents a $1 
billion per year industry for fish farmers and produces $6 billion per 
year in retail food; yet the Nation is presently importing 80 percent 
of the fish it consumes. Overall, U.S. citizens consume about 16 pounds 
of seafood per capita per year (half the global average) and, as the 
population continues to grow, the U.S. will need to find another two 
million metric tons of high quality seafood each year at a value of 
about $2-8 billion per year. To address this need, by way of examples, 
research and outreach supported by the National Sea Grant College 
Program on Manila clams and blue mussels have resulted in new 
industries worth $19 million annually and a $25M annual hybrid striped 
bass aquaculture industry.
    Estimates of the economic impacts of harmful algal blooms in the 
United States average $75 million annually. These impacts are the sum 
of different kinds of direct output impacts across four categories of 
effects: public health (divided between fish ciguatera and shellfish 
poisonings); commercial fishing; recreation and tourism; and monitoring 
and management costs. However, individual outbreaks can cause economic 
damage that exceeds the annual average. For example, outbreaks in the 
Chesapeake Bay in 1997 cost the Maryland seafood and recreational 
fishing industries almost $50 million in just a few months. Lost sales 
of shell fish in Maine and Massachusetts due to closures imposed as a 
consequence of 2005 harmful algal bloom were estimated to be $11 
million for the months of May through September. Invasive algal blooms 
along Maui's Kihei coast cause over $20 million in potential revenue 
lost each year to the State of Hawaii--including reductions in property 
value and rental income, and increased clean up costs.
    NOAA can help mitigate these losses by funding the research 
necessary to uncover the conditions responsible for the blooms and then 
advise on how to eliminate them or how to anticipate them and take the 
necessary actions to reduce their impacts.

Integrated Earth Observation Capabilities and Leadership

    Integrated Earth observation capabilities are vital to American 
competitiveness. The recently released National Research Council (NRC) 
report, the Decadal Survey, helps us realize that the U.S. Earth 
observation capability is not keeping up with expectations and needs 
and puts our nation's global competitiveness is at risk. For example, 
preliminary estimates of the potential economic benefits from new 
investments in an Integrated Ocean Observing System (IOOS) in U.S. 
waters range from $500 million to $1 billion per year, estimated 
largely in terms of increased economic activity and social surplus 
realized as a result of improved information about coastal marine 
conditions.
    It is likely that this is a gross underestimate of the potential 
value of IOOS as the NOAA Science Advisory Board has issued the report 
Ocean Modeling which claims that interactively coupled atmospheric--
ocean models with more real time air--sea data available to be 
assimilated into the models will greatly improve NOAA's ability to 
forecast the size, intensity and precipitation content of winter 
storms; such as dreaded Nor'easters which frequently impact the 
Nation's Capitol. The cost of an IOOS that builds out the essential 
federal monitoring backbone in the Nation's coastal waters, including 
the Great Lakes, could well be $250M/year in equipment, maintenance, 
ship and personnel costs. But what is the value to the Northeast from 
Charleston to Nova Scotia of greatly improved forecasts of the timing, 
amount and type of precipitation or of impending catastrophic storms in 
Barrow or the Great Lakes? It must be in the tens of billions per 
annum. Risk management requires investments in national infrastructure.
    In a January 12, 2007, speech to the World Affairs Council, Lord 
Levene, Chairman of Lloyd's, provided a global insurer's perspective on 
catastrophe trends and climate change. He stated, ``We cannot risk 
being in denial on catastrophe trends. We can expect to see U.S. mega-
catastrophes with 100 billion dollars insured losses soon. We urgently 
need a radical rethink of public policy, and to build the facts into 
our future planning.'' He added, ``The insurance industry will continue 
to play a vital role as enabler and rebuilder of the U.S. economy.'' 
U.S. environmental observing assets and the products provided are 
critical to ensuring that insurance and other sectors have accurate and 
timely information.
    Currently, the annual economic return to the U.S. economy 
associated with NOAA's El Nino Ocean observing and forecast system is 
between 13 and 26 percent, which is significantly higher than the 
Office of Management and Budget's 5.8 percent minimum rate of return 
specified for federal projects. To wit, we must have the global 
information infrastructure that is critical to our interconnected 
society. Comprehensive science information ensures that decisions will 
be made based on evidence rather than anecdotes. Long-term, sustained 
data is needed to document climate and identify trends. Without U.S. 
long-term climate data, the IPCC assessment would not have been 
possible.
    Environmental sensors and remote observations improve our 
understanding and response to climate change and can help build 
enabling capacity to sustain U.S. competitiveness. Here again, in 
today's global, flat-Earth economy, innovation is the key to America's 
ability to prosper. The U.S. must stay at the forefront of Earth 
observation and geospatial technologies to better forecast and mitigate 
the impact of climate change, natural disasters and not only lead the 
competition but leave a more sustainable world for our children and 
their children. The motivations and aspirations of the next-generation 
workforce are being shaped today. We should be setting a long-range 
vision in place to encourage today's youth to pursue science, math, 
technology and engineering professions to assure future innovation and 
competitiveness. NOAA can aid and abet that process.
    While satellites have been viewed as the panacea they are limited 
in their applications. As stated in the NRC report ``Satellite 
observations have spatial and temporal resolution limitations and hence 
do not alone provide a picture of the Earth system that is sufficient 
for understanding all of the key physical, chemical, and biological 
processes.'' Thus, we need a system of space, ground (in-situ), 
airborne and ocean-based (in-situ) sensors, both public and private, 
that can gather complementary information and can be integrated with a 
minimum of duplication. Our commitment today to technology and greater 
knowledge of the Earth would allow us to better protect life and 
property and create unprecedented opportunities to promote economic 
vitality. The right instruments and information systems enable our 
ability to make forecasts that help anticipate outbreaks of infectious 
disease, ensure adequate water availability and quality, or increase 
agricultural productivity. NOAA can aid and abet the build out of the 
required infrastructure.
    The recommendations by the NRC Decadal Report would enable a global 
view of issues and activities. But a global view alone is not 
sufficient to make policy or decisions. We need researchers, geospatial 
modeling and analysis that integrate NOAA data. We should promote the 
use of established standards and protocols to assimilate data from 
multiple sensors and sources-including commercial providers, State and 
local governments, academia and international partners-and provide the 
data through user-friendly web portals. The NOAA NESDIS National 
Climatic Data Center is the Nation's archive of weather, climate, 
satellite, sea level, radar, precipitation, etc. data that are so 
critical to planning for all federal agencies, including the Department 
of Homeland Security and its Federal Emergency Management Agency, and 
private industry and academia. High quality, scrubbed, reliable data 
are available and can be used to conduct retrospectives and to develop 
disaster risk management based on physical, ecological and social 
sciences diagnostic assessments and prognostications. NOAA data is 
vital to this process.
    The U.S. Commission on Ocean Policy, the Pew Commission, and the 
NRC Decadal report all call for increased funding to improve our 
current national Earth monitoring capability. While funding is 
important, what is also needed is clear federal leadership to address 
key questions such as: What is our national vision for Earth 
observations? How are requirements from the federal operational sector 
such as NOAA, USGS, USDA and EPA reflected in our research and 
development programs within NASA and NSF? Are requirements from the 
private sector being addressed? Leadership is essential to: protect 
these critical assets; develop a national Earth observation strategy to 
appropriately addresses climate change and other environmental 
challenges based on evidence over anecdote; assure economy and 
efficiency in agency plans and budgets; allow a smooth transition from 
research to operations to applications; improve U.S. land, atmospheric 
and oceanic -observing capabilities in equal priorities; improve 
capability and cooperation among government, private sector, academia, 
and non-governmental organizations; assure the much needed integration 
of our national and international Earth observation systems; and 
develop the products needed to make the best decisions for our country 
and future generations.
    The NRC Decadal report recommends that the Office of Science and 
Technology Policy, in collaboration with the relevant agencies, and in 
consultation with the scientific community, should develop and 
implement a plan for achieving and sustaining global Earth 
observations. Then a single point of contact or lead agency--such as 
NOAA--should be designated to assure complementary rather than 
duplicative or fragmented effort for all operational aspects of Earth 
observation and analysis.

Climate Change Science

    Through their capacity to absorb and transport heat and carbon 
dioxide, oceans are key drivers of climate change processes. In 
addition, they are also undergoing significant short- and long-term 
change over both large and small areas as evidenced by the increasing 
acidification of the oceans, climatic shifts associated with El Nino, 
dramatic changes in the amount of sea ice in the Arctic Ocean, rising 
sea level rise, and concern about possible abrupt climatic and 
ecological changes, particularly associated with shifts in ocean 
circulation.
    Unfortunately, chronic under-funding of ocean and atmospheric 
science has prevented us from capitalizing on new technology and 
innovative ideas that would help address huge information gaps and 
significantly advance our understanding of atmospheric and ocean 
processes. Improved understanding of these processes will greatly 
enhance our ability to predict the economic and ecological 
ramifications associated with climate change. This information will be 
essential as Congress balances competing demands in the development of 
new national policies to minimize and adapt to climate changes in the 
coming years and decades.
    NOAA can provide critical value to the deliberations concerning 
climate change by highlighting the importance of significantly 
improving our knowledge of ocean and atmospheric processes (physical, 
biological, chemical, geological) to provide decision makers with the 
information they need to make intelligent, economic and ecologically 
sound decisions--as well as the capacity to monitor these system to 
evaluate the effectiveness of any new policy mandates. The need to 
reduce our carbon emissions/footprint is important but so is the need 
to improve climate science and to pursue new management approaches to 
adapt to the inevitable environmental changes that will occur in the 
coming years and decades.
    A recent example of the advances that have been made but of a lack 
of resources to continue the exceptional research results that have 
been developed derives form a NOAA sponsored university cooperative 
partnership called Climate and Weather Impacts on Society and the 
Environment (CWISE). One of the many new advances made is the ability 
to predict in April, the number of hurricanes that will make land fall 
for an upcoming hurricane season on the U.S. eastern seaboard and the 
Gulf of Mexico (as was done in 2006), allowing for advanced planning. 
Unfortunately the program will not be continued, apparently because of 
a lack of NOAA resources to support the next phase of
    research which, within the next year, would have resulted in bi-
state level forecasts, from Texas to Maine. How much value would this 
new information be to federal and State agencies, to offshore and 
coastal industries, to insurance and risk management companies and to 
society? This Committee has been out front in leading the fight for 
meeting the Nation's future scientific and technical workforce needs. 
But here, the funding for graduate students, who would be skilled in 
helping NOAA and society deal with future impacts of natural hazards, 
will be terminated and the students will not be allowed to finish their 
degrees.

Stewardship and Environmental Stability

    Beyond the economic benefits that NOAA provides to the Nation, many 
of its activities and duties help to maintain environmental stability, 
help to support human health, and help to enhance national security. 
The conservation and stewardship aspects of NOAA are vital to these 
many benefits provided by the agency. Some examples include:

        <bullet>  NOAA works to preserve the Nation's living marine 
        resources by managing our fisheries and essential fish habitats 
        for safe and sustainable harvesting and consumption, by 
        protecting marine mammals under its jurisdiction, and by 
        helping to implement the Endangered Species Act;

        <bullet>  NOAA protects our underwater treasures through the 
        National Marine Sanctuary System, which maintain, monitor, and 
        enhance the natural biodiversity, historical and cultural 
        heritage, and other unique qualities of these areas, while 
        enhancing public awareness, understanding, and stewardship 
        towards the marine environment; and

        <bullet>  NOAA helps manage the Nation's coastal zones to 
        balance competing demands, maintains a national network of 
        monitoring programs that detect, quantify and forecast changes 
        in coastal environmental quality, and works to protect coastal 
        communities from the occurrence of disastrous oil and hazardous 
        material spills and limiting the effects of spills on coastal 
        resources that are vital to local economies.

NOAA Organic Act

    Many members of the Friends of NOAA Coalition believe that an 
organic act would be very useful to guide the continued development of 
the policies, priorities, and programs of NOAA. I would like to offer 
some suggestions on the issues to be addressed in the hope that 
Congress will move to enact an organic act for NOAA.
    Both the U.S. Commission on Ocean Policy and the Pew Commission 
argued strongly for an organic statute for NOAA. I believe such a bill 
would significantly strengthen the agency by providing a clear mandate 
from Congress to the Nation's lead civilian agency for oceans and 
atmosphere. The Joint Ocean Commission Initiative's recent report, From 
Sea to Shining Sea, also calls on Congress to codify and strengthen 
NOAA and thereby enhance its missions.
    A comprehensive NOAA organic act should address the following key 
issues--

        <bullet>  Management--including the management of ocean and 
        coastal areas and living and non-living marine resources, 
        including fisheries, ocean and coastal areas, vulnerable 
        species and habitats, and protection from pollution and 
        invasive species;

        <bullet>  Assessment, prediction, and operations for 
        atmospheric, ocean, and coastal atmospheric environments, 
        including mapping and charting, satellite-based and in situ 
        data collection, implementation of the Integrated Ocean 
        Observing System, broadly based data information systems, and 
        climate and weather services and products; and

        <bullet>  Research and education on all aspects of oceanic and 
        atmospheric resources, including a focus on the importance of 
        research and development, the use of scientifically valid 
        technical data throughout the agency and with external 
        partners, and promotion of educational activities at all levels 
        across the agency and with the public.

    Within any NOAA organic act, beginning with a strengthened science 
program and a more service-oriented approach, NOAA should promote 
inclusiveness and a commitment to meaningful partnerships with other 
agencies, states, the private sector, and the academic community. Where 
partnerships are strong, each institution benefits from the strengths 
of the others and the tendency to duplicate similar expertise and 
functions are minimized.
    Extramural partnerships were stressed in the recommendations from 
the NOAA Research Review Team's Review of the Organization and 
Management of Research in NOAA which said, among other things, ``NOAA 
cannot accomplish its goals without the extramural community, 
specifically the universities and institutions that represent the broad 
range of expertise and resources across the physical, biological, and 
social sciences. Moreover, there is the important issue of maintaining 
a scientific and technologically competent workforce in NOAA and that 
workforce is another `product' of the external research community.'' We 
urge Congress to provide explicit authority and guidance via a NOAA 
Organic Act that will emphasize the development of meaningful 
partnerships with NOAA's stakeholders and partners.

NOAA, NASA, NSF and the Earth Sciences

    No discussion about the role of NOAA is complete without 
recognizing the inextricable linkage that exists between NOAA, NASA and 
NSF. The importance of NOAA research and the unique niche that it fills 
vis-a-vis both NASA and NSF research is very important and is one of 
the areas that is always seemingly misunderstood when it comes to the 
vitally important issue of Earth-observing systems, and of the need for 
end-to end scientific research in support of operations, applications, 
and services needed by multiple sectors of society including private 
industry and society in general.
    This committee has already heard from the co-chairs of the National 
Academy of Sciences panel that prepared the decadal survey entitled, 
Earth Science and Applications from Space: Urgent Needs and 
Opportunities to Serve the Nation. The panel's interim report made the 
following observations:

         ``The current U.S. civilian Earth observing system centers on 
        the environmental satellites operated by NOAA; the atmosphere-, 
        biosphere-, ocean-, ice-, and land-observation satellites of 
        NASA's Earth Observing System (EOS); and the Landsat 
        satellites, which are operated by a cooperative arrangement 
        involving NASA, NOAA, and the U.S. Geological Survey (USGS). 
        Today, this system of environmental satellites is at risk of 
        collapse. Although NOAA plans to modernize and refresh its 
        weather satellites, NASA has no plan to replace its EOS 
        platforms after their nominal six-year lifetimes end (beginning 
        with the Terra satellite in 2005), and it has canceled, 
        descoped, or delayed at least six planned missions, including 
        the Landsat Data Continuity Mission.

         ``. . .a substantial reduction in Earth observation programs 
        today will result in a loss of U.S. scientific and technical 
        capacity, which will decrease the competitiveness of the United 
        States internationally for years to come. U.S. leadership in 
        science, technology development, and societal applications 
        depends on sustaining competence across a broad range of 
        disciplines that include the Earth sciences.''

    In January 2007, the National Academies released the final report 
of the Decadal Survey panel. In the final report, the panel reiterated 
the concerns about the Nation's system of environmental satellites 
being ``at risk of collapse.'' The final report states: ``In the short 
period since the publication of the Interim Report, budgetary 
constraints and programmatic difficulties at NASA and NOAA have greatly 
exacerbated this concern. At a time of unprecedented need, the Nation's 
Earth observation satellite programs, once the envy of the world, are 
in disarray.''
    At a time when policy-makers worldwide are grappling with the 
important issue of climate change and global warming, allowing such 
disarray to develop in our Earth observing systems makes no sense to 
me. The Coalition supports the continued vigilance of this committee on 
this matter and urge the Administration and the Congress to provide the 
necessary support to move our Earth-observing systems forward rather 
than backward.

An Independent NOAA

    As this committee knows well, the idea of making NOAA into an 
independent agency is not new and remains a controversial proposal. At 
the very least, however, the Office of Management and Budget (OMB) 
could consider reviewing NOAA's budget within its natural resource 
programs directorate, rather than the general government programs 
directorate. This change would make it easier to reconcile NOAA's 
budget with those of the other major resource-oriented departments and 
agencies, all of which are reviewed as natural resource programs at 
OMB. Enactment of a NOAA Organic Act provides a useful forum for the 
consideration of such a proposal.

Conclusion

    The members of the Friends of NOAA Coalition appreciate the severe 
budgetary constraints under which the Congress is working. However, we 
also believe that NOAA and its partners directly contribute to the 
health, safety, and continued economic competitiveness of our country. 
Therefore, the Coalition urges the Congress to recognize the importance 
of NOAA--and the information it produces and services it provides--by 
fully supporting an appropriation of at least $4.5 billion (again, only 
about $15/American annually) and legislation to codify and strengthen 
the agency as the legislative and congressional budget processes go 
forward over the coming months.
    On behalf of the dozens of organizations, companies, and 
universities that make up the Friends of NOAA Coalition, we are 
grateful for the opportunity to participate in this hearing. I would be 
happy to try to answer any questions you and the Members of the 
Committee might have.
    Thank you.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                      Biography for Len Pietrafesa
    After receiving his Ph.D. in Geophysical Fluid Dynamics in 1973 
from the University of Washington, Dr. Len Pietrafesa joined the 
faculty at North Carolina State University and was made Full Professor 
(of Ocean & Atmospheric Sciences) in 1980. He served as the Head of the 
Department of Marine, Earth and Atmospheric Sciences for over 10 years 
and is presently the Associate Dean for External Affairs at the College 
of Physical and Mathematical Science. Dr. Pietrafesa's research and 
publications are diverse and include: estuary plume dynamics; coastal 
storm induced surge, flood and inundation forecasts; the interaction 
between the atmosphere and ocean in coastal storm genesis and 
intensification; interactive wave-current coupled modeling; the 
climatology of the frequency of occurrence and tracks of tropical; and 
the role of science in public policy. Recent foci are on the linkages 
between weather and climate and human disease, end to end modeling of 
physical through human systems and building a real time reporting 
coastal air-sea observing network offshore of the Carolinas in which 
data is assessed on the fly and assimilated into interactively coupled 
atmospheric-ocean models. He also discovered the mechanisms for the 
topographic deflection of the Gulf Stream at the Charleston Bump and 
the creation of the Charleston Trough, which he discovered and named, 
and coined the air-sea interaction term ``buoyancy stress.''
    Dr. Pietrafesa is widely published (more than 180 publications) and 
his community service includes being Chair of the NOAA Science Advisory 
Board (eight years total on the Board, five years as the Chair); a 
member of the Board of Trustees of the University Corporation for 
Atmospheric Research (for six years); former Chair of the USA-Peoples 
Republic of China Steering Committee on Virtual Co-Laboratories; former 
Chair of the National Association of State Universities and Land Grant 
Colleges Board on Oceans and Atmosphere and Vice Chair of the 
Commission on Environment, Food and Renewable Resource. He was also 
former Chair of the Council on Ocean Affairs, the precursor to the 
Consortium for Oceanographic Research and Education (an organization he 
helped form). As well as former Chair of the American Meteorology 
Society Educational Advisory Committee, and a member of the American 
Geophysical Union Committee on Public Affairs. He has chaired 25 Ph.D. 
and 25 M.Sc. committees and mentored 15 post-doctoral students. He has 
given written and oral testimony on capitol Hill to committees on 
science in both the House and the Senate regarding such topics as: 
``are we prepared as a nation for severe weather''; ``what were the 
three most important recommendations in the COPS report''; and ``is the 
academic community in support of the American Competitiveness 
Initiative.''

                               Discussion

                  National Weather Service Operations

    Chairman Lampson. Thank you very much. Let us start in with 
the questioning. As I said before, we will go back and forth 
between each of the sides as normal. There is an old saying 
that we all know. If something is not broken, do not fix it.
    With that thought in mind, what is the current status of 
NOAA's concept of operations plan for change in the 
configuration of local weather forecasting offices of the 
National Weather Service, Admiral?
    Vice Admiral Lautenbacher. For the past couple of years, 
obviously to try to be as efficient as you possibly can with 
the taxpayer resources, we are looking for ways to be more 
efficient with services from our forecast offices. We have not 
fully fleshed out all of the ideas that I think are relevant in 
that area. We are looking at ways to deal with that, and 
basically the current idea is on hold while we look at ways to 
modify it or change it. But we are going to continue with the 
service that we have today and not make any changes until new 
ideas can be tested and be thoroughly vetted with our unions 
and our personnel.
    Chairman Lampson. Are you looking at trying to achieve a 
cost savings in the Weather Service operations?
    Vice Admiral Lautenbacher. We need to involve building new 
products. So when I talk about saving money, we are trying to 
figure out how to take care of some of the needs that we have 
that are not covered today by being able to be more efficient 
in the way we do business. I would like to prefer to say it 
that way.
    Chairman Lampson. And I assume that is a yes?
    Vice Admiral Lautenbacher. Well, we have a lot of need to 
provide climate forecasting, ecosystem forecasting, and 
extensions of our hazardous weather forecasts. So there is more 
that can be done, that needs to be done, as the Nation grows; 
and we need ways to be able to accommodate that within our 
program. So looking for ways to deliver that service in a more 
efficient way is one of the things that we are trying to work 
on.
    Chairman Lampson. Has there been any effort to try to look 
at in terms of a percentage or dollar terms as to what kind of 
savings you might be interested in trying to achieve?
    Vice Admiral Lautenbacher. Our target is to be more 
efficient but maintain the service that we have to date with 
room for more service. There is no target. There is no, you 
must save five percent, you must save 10 percent. We have found 
that in an area where you are providing 24-7 emergency coverage 
for the Nation is not the right way to go about delivering 
those services. Arbitrary cuts generally don't work.
    Chairman Lampson. In the agency briefing to staff in 
January on the Concept of Operations (CONOPS) plan, General 
Johnson indicated that NOAA would ``demonstrate operability, 
performance, and effectiveness before committing to changes.'' 
What activities are you planning to demonstrate operability, 
performance, and effectiveness?
    Vice Admiral Lautenbacher. Well, right now they are looking 
at ways to set up a testing process. I haven't approved the 
final testing process yet, so I can't sit here and tell you 
exactly how that will be done, but we have to do a test in a 
way that is fair, that doesn't eliminate any service, and that 
goes along with the congressional advice on indications on what 
we should do with our spending. So we intend to honor those 
indications that we have from Congress.
    Chairman Lampson. Is the agency planning to obtain comments 
from the outside community of the National Weather Service 
stakeholders', State and local emergency managers, for example, 
who rely on local forecasting office personnel for information 
and assistance?
    Vice Admiral Lautenbacher. Absolutely. I run an active 
forum with our stakeholders as well as General Johnson, and any 
changes we make are always discussed with our stakeholders.
    Chairman Lampson. Are NOAA's employees fully informed of 
the agency's plans and are they being included in the planning 
and demonstration of the proposed changes?
    Vice Admiral Lautenbacher. Yes, they are and they will be.

      National Polar Orbiting Operational Environmental Satellite 
                            System (NPOESS)

    Chairman Lampson. This committee has been following the 
NPOESS program closely for years now, and it is well over 
budget and behind schedule.
    The risk of a gap in our weather data is still quite high. 
The estimate for the procurement of the new geostationary 
satellite series is well-above the previous estimate, but there 
is no indication in this budget or in any recent budgets that 
the Administration has presented to this Congress that any 
adjustments are being made to accommodate the budget realities 
associated with the true cost of your satellite procurement 
programs. It looks like the administration's plan is to pass 
the bill for all of this onto the next administration. Even a 
small cost overrun by satellite procurement standards 
translates into significant amounts of money where NOAA's other 
programs are concerned.
    Where are the additional funds that are needed to continue 
support for the existing essential programs at NOAA?
    Vice Admiral Lautenbacher. The funding that is in our 
budget and that is projected, which we provided as Congress 
asked for the next five years, is the restructured NPOESS 
program. That represents a fully funded program that will 
deliver the Nunn-McCurdy Review Program which was briefed to 
the Committee. The numbers for this year that are there is 100 
percent of the funding that is needed to maintain this program 
on track and to minimize the risk, and the numbers that we have 
in the out years, 2009, 2010, are the projections. We intend to 
work hard to ensure that the funding remains on track and that 
the program that we brief to you will be delivered at this 
point on track; and I will fight for the funds to try to do 
that.
    Chairman Lampson. Even in the outyears?
    Vice Admiral Lautenbacher. Even in the outyears. I am a 
shameless advocate of these programs, and I will continue to 
fight to get what I think is right, sir.
    Chairman Lampson. Thank you very much. I will now recognize 
the Ranking Member, Mr. Inglis, for five minutes.

                     Wildfire and Drought Warnings

    Mr. Inglis. Thank you, Mr. Chairman. We were talking about 
a number of things recently when you and I had an opportunity 
to get together, and I am particularly interested in wildfires 
and planning for droughts and how NOAA might be helpful in that 
way. Is that something that you currently do?
    Vice Admiral Lautenbacher. Yes, we do. We are involved in 
providing warnings for wildfires. We use satellites to help us 
get the information where wildfires might be starting and then 
we use the atmospheric information that we get from the 
satellites as well as ground-based information to plot smoke 
plumes, and we provide tailored forecasts to firefighters on 
scene. And when there is a significant fire, we deploy what we 
call an I-MET, a well-trained meteorologist with a field 
computer receiving station right to the command post on-site in 
the firefighting to provide, which is the most important thing 
you can do for firefighters is to give them an idea what is 
happening locally with winds and precipitation and 
temperatures. That is what we do, and that is a normal service 
and we intend to try to make it better.
    We are looking at doing better models, we are looking at 
improving the links with our satellites and the use of more 
information and working with the Department of Agriculture, the 
Forestry Service, and the other folks, the states and the local 
emergency managers. It is an important part of our mission.
    Mr. Inglis. How about the long-range aspects of that? Any 
ability to predict a drought in this planting season, for 
example, such that it wouldn't be wise to plant somewhere 
because we see that this is coming? Are we that good or is that 
a ways away still?
    Vice Admiral Lautenbacher. It is not far away, and thanks 
to the bill in Congress that you all helped pass last year, the 
NIDIS Bill, the Integrated Drought Information System is going 
to create a network that uses the federal networks as well as 
local networks, private networks, to build a much finer scale 
of information that can be brought in to produce models that 
will give us a much better handle on predicting the future. We 
believe that with the integrated ocean observing system that 
was just talked about in addition to the new sensors on 
satellites, that we will be able to do things like accurately 
forecasting seasonal conditions so that planting and crop 
rotation and management of livestock can be done on a much more 
economically sound basis taking into account environmental 
conditions. I believe that we are at the threshold of being 
able to do that.

                      Insufficient Funding Levels

    Mr. Inglis. Dr. Pietrafesa, you testified I believe that 
the funding level you would recommend is $4.5 billion. As I 
understand it we are at $3.8 billion in this request. And 
climate change is obviously a significant topic around here. Do 
you think that the $3.8 billion is sufficient to have NOAA be 
gathering the information that we need or how do you think we 
will fare at the $3.8 billion level?
    Dr. Pietrafesa. I don't believe we will fare very well and 
the reason is in various parts of NOAA, there are activities 
that will contribute to our better understanding of climate, 
but for lack of the distributed observing network, the global 
observing network that is required, let alone the observing 
network in the coastal areas of the United States, the Great 
Lakes, and even over land, we are lacking the data that is 
needed and the precision of the data, the resolution of the 
data that is really required to really detect climate signals. 
That said, our ability to archive and store the data and to 
scrub that data and make that data available in near-real time 
or real time to industry, to university, researchers, and to 
federal agency researchers and information providers is 
compromised because the budgets are so tight.
    One of the issues that really challenged the Science 
Advisory Board was the fact that NOAA simply can't afford to 
invest as much money as we believe it could or it should rather 
into the data activity. And NOAA has made every effort to 
improve its data archiving and access facilities and 
capabilities, but they are just under capitalized in that area. 
Also, the assessments of those data require different kinds of 
mathematical methodologies, both deterministic and statistical 
and empirical. And that requires an investment not only in the 
computers to be able to analyze those massive data sets but to 
integrate those data sets with each other; and these are 
diverse, different but complementary data sets that need to be 
integrated if one is going to truly resolve what the 
relationships are between different climate factors and the 
weather delivery systems that evolve from these climate 
conditions. That takes people, it takes personnel, that takes 
extramural engagement, that is engagement of the extramural 
community, the university community, private industry, along 
with the NOAA scientists. And that is a considerable 
enterprise.
    So just in the data area, if we saw another $25 to $50 
million that would go a long way towards improving the 
capability of the agency to deliver more timely climate 
information and better climate information, more advance 
climate information, and in fact to get into the downscaling 
and upscaling of the climate to weather models and vice versa. 
And these are not just weather models--it doesn't end with the 
weather models. It actually could move into the ecological 
area.
    So one could anticipate ecological impacts from various 
climate conditions, along with socioeconomic impacts. The 
Science Advisory Board believes that it is entirely possible to 
go from physical phenomenon to socioeconomic impacts in a 
seamless way through some complex mathematics and assimilation 
of the data that NOAA has in its archives or should be and 
could be collecting in its archives were it not 
undercapitalized.
    Chairman Lampson. The gentleman from Washington, the 
Chairman of the Research and Science Education Committee I'll 
recognize for five minutes.

                       Law Enforcement Capability

    Mr. Baird. I thank the Chair. Thank you, Gentlemen. Being 
from Washington State we are obviously interested in NOAA's 
activities. Particularly I want to ask a question about the 
resources available. Almost by its nature, NOAA is going to 
have to spend a lot of time in the water. Do you have adequate 
resources and what sorts of resources do you need for two main 
missions, both enforcement and research?
    Vice Admiral Lautenbacher. Those are fully loaded 
questions.
    Mr. Baird. They are not meant to be loaded. I know they are 
broad.
    Vice Admiral Lautenbacher. No, no, they are broad. But 
enforcement, I believe that we have the right amount of money 
in our budget to be able to deal with enforcement, and what is 
important about our enforcement budget is that it leverages 
State assets and resources. Part of our budget is designed to 
have cooperative agreements with each of the States that bring 
their Department of Fisheries and Wildlife and DNR people in so 
we have seamless enforcement of our rules between the State 
waters and between the federal waters.
    Mr. Baird. I have been told that some of your vessels are 
kind of aging to say the least and not up to the task of 
tracking down people who are violating our maritime laws. And 
that is really, on the enforcement side, that is the nature of 
my concern. We have got these wonderful sanctuaries or other 
zones of protection or just natural interest. Do you guys have 
the folks who can track somebody as an intruder? They spend 
time out in the region themselves, in the real world in the 
region, and then if somebody does intrude or violate laws, 
track them down. That is the essence what I am after.
    Vice Admiral Lautenbacher. I understand your question. The 
sanctuaries have small boats that they do use for enforcement 
activities inside the marine sanctuaries, which of course, 
there is a number on the West Coast. We try to recapitalize 
those boats with what we have. Obviously the fleet is aging, 
but we are able to each year replace a few and try to move on. 
We also use the cooperative agreements again. Fish and Wildlife 
helps us in places where we have adjoining types of preserves 
and national monument areas and national management areas. And 
the states help us as well. But in fact, it is difficult at 
times to maintain full coverage of all of our national marine 
sanctuaries. They have their large areas, and that is true.

                          Research Capability

    Mr. Baird. The second question, in particular, Doctor, the 
research side, do we have the kinds of vessels we need. I 
remember talking to somebody a couple years ago, and the nature 
of the vessel--if they wanted to study an area, they weren't 
equipped to go overnight for a couple of days. And so they were 
having to go out, study during the day, and come back; and sort 
of common sense says, one, that is not the most economical way. 
If you have the seakeeping capacity and the berths and whatnot 
to spend a couple days there, you could save all that transit 
time, plus you are in the environment longer. You can do real-
time continuous observation versus--anyway, any thoughts on 
that?
    Dr. Pietrafesa. We have been able to in the last couple of 
years with some congressional help to provide some larger 
vessels. There is a new one now at the Monterey Bay Sanctuary 
that allows us to go overnight for several days and do the 
kinds of research activities that you've mentioned. I think 
this new boat is a good prototype for the future. We are 
looking as we can build the capital budgets to be able to put 
more of these in our sanctuaries, but they are an important 
adjunct to research.
    Mr. Baird. Thank you. Admiral, Doctor, any comments on 
that?
    Vice Admiral Lautenbacher. Yeah, I mentioned earlier the 
integrated ocean observing system, part of the deploying and 
maintaining and recovering and keeping the system alive is 
actually a research activity because the kinds of systems that 
have been deployed in the past are not necessarily real time 
but all of the NOAA assets have been real time. But some of the 
new observing systems are capable of observing for example wave 
spectra, that is, the propagation of waves and also tell you 
not just the amplitude of the waves but which way they are 
moving. And getting that data back in real time is a challenge 
because, you know, you are collecting data every half-second; 
and so you need wide band widths and you need to be able to 
talk to the instruments out in the ocean, so it has to be two-
way communication.
    But those sensors are still in developmental stages, and 
NOAA is going to have to develop a strategy to maintain those 
systems once they are shown to be very valuable, particularly 
in predicting things like riptides for example which take so 
many lives per year. And once they get into that game, they are 
going to have to be able to get back out there to service these 
instruments. It is not going to be an annual servicing but 
rather it may have to be every six months.
    Mr. Baird. So that will need to be in the budget?
    Vice Admiral Lautenbacher. That needs to be in the budget 
as well.

                National Marine Fisheries Service (NMFS)

    Mr. Baird. Admiral, educate me. NMFS is part of your 
budget, correct?
    Vice Admiral Lautenbacher. Yes, it is.
    Mr. Baird. One of the challenges we face in the northwest 
has been with the listing of salmon steelhead, and those 
species. Permitting times are extraordinarily costly to our 
economy. I recognize the importance of your job in trying to do 
the environmental review process, but when we don't have enough 
personnel to move permits quickly, literally hundreds of 
millions of dollars and significant opportunity costs result.
    So I would be interested first of all in your comments on 
your budget as it relates to personnel to process permits. 
Secondly I want to commend some of your folks in the district. 
We have really initiated, at my request, some collaborative 
efforts where NMFS works with Fish and Wildlife, Corps of 
Engineers works with EPA, as needed, and with State agencies to 
do simultaneous parallel processing of permits, to work on 
programmatic kinds of permits. Any comments either on that 
approach and/or personnel would be much appreciated.
    Vice Admiral Lautenbacher. Yes, sir. Thank you very much 
with recognizing the issues that we have with permitting. We 
have some additional money, not a lot, in this budget to help 
improve the permitting system and get a few more people on it. 
It is one of the issues that generally is not recognized as 
important in my view as it ought to be. I am a strong advocate 
for increasing resources in that area. Each year I try to do as 
much as I can to improve both in the marine mammal protection 
area as well as in the fishery permits and the consultations 
that we have to do for various other licensing that occurs for 
power dams and all that other thing.
    I am a big fan of the streamlining and of simultaneous 
processes. We have tried to make strong bridging agreements 
with the Interior Department and local areas so we can do 
things simultaneously and try to improve, and EPA as well to 
try to improve it. I strongly support all efforts to make that 
a collaborative effort.
    Mr. Baird. I appreciate that. I know my time has expired. 
The last comment I would make is I personally believe that 
investing in additional permitting personnel would vastly pay 
back the taxpayers in terms of expedited review process.
    Chairman Lampson. I want to continue a little bit of what 
Mr. Baird was talking about, because while he is having a 
problem with salmon in one place, I am having a problem with 
red fish at another place. And I know how important rebuilding 
stocks are and it is a priority of the administration, but what 
has been requested, $3.96 billion is about 2.7 percent below 
the fiscal year 2006 appropriated funding including $795.9 
million for the National Marine Fishery Service, nearly $8 
million less than what was appropriated in fiscal year 2006.
    So for the past year, I have been literally beaten up over 
concerns from the Texas Gulf Coast regarding stock assessments, 
especially like when it comes to red snapper. Now, there are 
commercial interest, there are recreational anglers which is a 
significant part of the economy there. In my district and in 
surrounding districts, along with commercial shrimpers, both 
shrimpers and commercial boats have experienced losses in 
recent years with some being literally forced out of business. 
One of the largest and most popular snapper fishing party boats 
just recently announced that he could no longer stay in 
business because of seasons and size restrictions. Anglers have 
to throw back catch that is deemed too small, and one of the 
problems with catching red snapper, which is a fish that goes 
at a very deep water, and if you pull a fish up very quickly as 
one does in fishing and you find out that it is not the right 
size and you have to release it, it is dead.
    And so we are drawing a good resource. And that means that 
I get to catch more of those fish and pull them up and kill 
them as well. And if they are not the right size, then we throw 
them overboard as well.
    So we got some serious problems here that have been 
discussed for a long time but don't seem to be reaching the 
point of solution. It results in higher mortality rates and 
consequently, lower stocks. And they are being forced to comply 
with shorter and shorter seasons which is supposed to help in 
rebuilding the stock but I am not convinced that it is.
    Same question, is this budget request sufficient to perform 
the real research necessary to provide adequate stock 
assessment and management?
    Vice Admiral Lautenbacher. A couple of comments. The 
Magnuson-Stevens Bill under which we manage fishery was just 
reauthorized by Congress last year. So it is a bill that 
includes actually stronger provisions in it to prevent over-
fishing. The Administration has added another $6.5 million to 
try to accommodate the work that goes on. Some of that is to 
improve the amount of effort that goes into the science so that 
we don't have the debates on what is the right science for 
this.
    Chairman Lampson. How does that fit with this which has 
been decreased?
    Vice Admiral Lautenbacher. You were talking about the 
section of the National Marine Fishery Service budget, and I 
will point out to you that that is the area that was shall we 
say least reduced from the enacted level. It is almost at the 
same level as Congress had left it in fiscal year 2006. That 
area is not a big change. There are changes if you look 
across----
    Chairman Lampson. $8 million?
    Vice Admiral Lautenbacher. $8 million out of----
    Chairman Lampson. $8 million less.
    Vice Admiral Lautenbacher.--$800. $8 million out of $800, 
roughly. I mean that is the numbers you are looking at, I 
think, right? Around $790-something, $804? I haven't got it in 
front of me. The Fishery Service of all of our areas is closer 
to being what Congress authorized in previous years. None of 
our areas are up to the level as been pointed out by all of 
you, that we are roughly $100 million down from the enacted 
levels that we are working on this year with the continuing 
resolution, but these are increases over what the 
administration asked for last year. Again, I come before 
Congress with continued offers to work with Congress to make 
sure that the money is put in the right places, that together 
the Nation uses it as well as we can.
    But we have added more money to help us with Magnuson-
Stevens which is what you are----
    Chairman Lampson. Okay.
    Vice Admiral Lautenbacher.--commenting on.
    Chairman Lampson. What about in working with other 
agencies, for example, Texas Parks and Wildlife Department, 
other States' agencies to increase the data collection efforts, 
especially when it comes to licensing of recreational anglers 
and tracking of charter boats. Additional work----
    Vice Admiral Lautenbacher. There is $3 million to try to 
improve that effort. We recognize that in the National Academy, 
we asked for a National Academy Report, that we need to have 
better information for recreational anglers, that it is 
obviously a major part of our economy and our coastal 
management issues.
    Chairman Lampson. Would you like to make a comment on this, 
Dr. Pietrafesa? My time is expired, but I think it would be----
    Dr. Pietrafesa. Sure. This is an area where I believe that 
investments would really be wise and would be very productive. 
As I said in my testimony, the U.S. appetite for seafood is 
such that we are going to need an additional 4.5 billion pounds 
to appear in our supermarkets over the very short term in the 
future. And I see that there are two approaches that could be 
taken. One is that we need to be investing in research that 
looks at the stocks, the strength of the stocks, also the year-
class strengths of the recruits as relates to climate factors 
and weather conditions, you know, changes in precipitation, 
river discharge and the like, changes in how the loop current 
in your part of the world, how the transport of the loop 
current changes from year to year or even season to season. So 
that is how the wild stock varies as a function of naturally 
occurring phenomenon.
    On the other side, we need research on creating new 
agricultural industries, and so if you are going to invest $3 
million a year in regulation, it seems to me that centers of 
excellence could be created at least on the order of $6 
million. At least initially that could be located at some key 
locations around the country where agriculture research could 
be done along with climatological weather, ecological research 
that could be done.
    So one could take a look at the agriculture approach as 
well as the wild stock approach to better understand the 
natural system as well as growing and raising new stocks.
    Chairman Lampson. I have a personal request, Admiral 
Lautenbacher, and that is you help me find some way that I can 
personally work with the folks in NMFS and see if we can't get 
them to better listen to the tens of thousands of sports 
fishermen who really know particularly the Western Gulf. My 
guess is that many know other areas of the Gulf of Mexico as 
well. But these people truly feel that they are not being heard 
or listened to by this agency. That is a personal request on my 
part, and I would be honored if you would work with me on that.
    And at this time I will recognize Mr. Inglis.

                          Satellite Capability

    Mr. Inglis. I thought you were going to ask him to help you 
identify where the big ones were, or that is what I thought. 
Admiral Lautenbacher, back to the climate change issue. Help me 
understand NOAA's role in all that the Federal Government is 
doing about climate change. I take it you have a fair amount of 
the responsibility for the work that is going on, right? NASA 
is also involved and spends a lot of money on satellites. How 
does that break down? Describe the role of NOAA as compared to 
other agencies that are doing other things?
    Vice Admiral Lautenbacher. We have a very strong interest 
and a strong talent and skills to deal with climate issues. We 
are part of the government-wide Climate Change Science Program. 
In fact, one of our people is the leader of that program, Dr. 
Bill Brennan. We contribute across the full spectrum of climate 
services in general, from research up through products that our 
Weather Service puts out regularly for people which was 
mentioned a little earlier in our experimentation to be more 
efficient.
    So we have the laboratories to do the modeling. The 
Princeton Geophysical Fluid Dynamics Laboratory's model is 
ranked in the top of the models that was used in the IPCC 
Report which just came out earlier in February. We have the 
satellites that are--some of the data is climate quality, a lot 
of it is not. We are at the verge of an era where we need to 
build more climate satellite instruments that provide the right 
kinds of accuracy for climate variables, but what we have NOAA 
provides and uses. We maintain the depository for all of our 
climate information at the Climate Data Center. Basically the 
Library of Congress for Scientific Information on Climate is 
maintained inside NOAA. We have the delivery service, weather 
forecast offices, to provide the products to the people, to the 
public, to emergency managers. So we have a, you might say, 
sort of a full-service range of activities that we are engaged 
in.
    We also do assessments because of the impact of climate 
change on living marine resources and coastal resources where 
we have, you know, the legislation that requires us to maintain 
activities in those areas for fisheries as we just mentioned.
    So we are a full-service climate organization. It is one of 
our strategic goals, climate change and planning and reacting 
to climate change for the future. I have organized the whole 
NOAA enterprise into four themes. We have one manager that 
manages climate services and deals with that whole arena. So we 
are very much engaged in it from A to Z.
    Mr. Inglis. So for example in the satellites, do you pay 
for the satellites that you just mentioned?
    Vice Admiral Lautenbacher. Yeah, we pay--I forgot to 
mention the NASA role. NASA builds the research satellites and 
really most of our climate satellites today are research 
satellites. And so they are a one-of-a-kind research instrument 
that has been put into place, and they are being used to 
further our climate records. NOAA operates and maintains the 
operational satellites. So we have a constellation of 
satellites that ranges from two in a geostationary orbit that 
are constantly looking at both coasts of the United States. 
That is good for hurricanes and severe weather.
    And then we have polar orbiting satellites that have an 
orbit of 90-some minutes that circle the Earth and provide--
they are much lower orbit. They are not 23,000, 22,000 miles, 
they are down at 500 miles or so; and they provide much of the 
data that goes into our models. So those are operational 
satellites. And the NPOESS program, which I talked about, is 
sort of the next generation polar orbiting satellite.
    We are trying to move climate instruments from the research 
into operational, and that is part of the issue of the 
difficulty of building the NPOESS program, the risk involved in 
doing that. We have had to stretch out the movement of those 
instruments from NASA satellites to NOAA operational 
satellites.
    Let me stop. Does that help?
    Mr. Inglis. Who pays for the delivery of the satellites 
into space? Does NASA do that or do you have to pay them to do 
that?
    Vice Admiral Lautenbacher. My part of the Commerce 
Department budget contains the money for the operational 
satellites. The research satellites--and we also use that data 
for weather forecasting--are operated and funded by NASA. So we 
feed off and need the Earth-observing part of NASA's budget to 
help us with our climate services and weather services 
delivery.
    Mr. Inglis. Absent the plus-ups that you hope to get I 
guess as this goes through the process, without those, you do 
all right on the things you have just been describing or do 
those get tight as well as--I know the overhead is particularly 
tight without--in other words, the ability to pay staff is 
particularly difficult without those plus-ups, right?
    Vice Admiral Lautenbacher. It is but let me say I support 
the President's budget, so we have tried to craft a budget 
which includes enough money for payroll raises for all of our 
people. And so my plea generally to Congress and certainly to 
the House has been support the President's budget. We generally 
have been reduced. The House mark has generally been reduced 
for NOAA, not increased. So that has been part of the dynamic 
that shapes our operating from year to year.
    But the President's budget has been crafted. We have tried 
to craft a budget that will maintain the services with the 
right amount of inflation that funds this year's increment for 
these satellites at exactly what is needed, 100 percent; and 
again, I will fight for the money for next year and the next 
year, and I will keep going until we get these things in place.
    We have also included, which I think is very important for 
this committee, in the 2007 budget, we have included $19 
million to help return climate sensors to the NPOESS program 
that we have had to stretch. Let us not say to the program 
itself but to find alternative ways if necessary, put them on 
other satellites, free-flying satellites, have other agreements 
with our international partners that launch satellites, 
commercial industries. So we are looking very hard, and there 
is money there to ensure that we don't lose any data continuity 
from the sensors that we have had to stretch out because of the 
NPOESS development difficulties.

                      International Collaboration

    Mr. Inglis. You just mentioned something interesting, that 
is the international cooperation. I take it a fair amount of 
the information that you gather is shared with folks around the 
world? So actually it is in effect assistance to the rest of 
the world that we are providing with weather, is that right? I 
mean, do we freely share this information or is it available to 
the world-wide community?
    Vice Admiral Lautenbacher. We do. We share the information 
and we have worked through the World Meteorological 
Organization for some 80 years to build a network around the 
world. It is an example for what I use for a global Earth-
observing system of systems which we are also working on for 
more areas to be able to share the information because our 
weather comes from China and the Pacific Ocean. In fact, a 
number of years ago, the Europeans loaned us a satellite when 
we had one that had difficulty. We have helped the Japanese 
when their satellite went down with one of our older ones that 
was in orbit. So there is an international group that looks at 
trying to maintain a continuous constellation and weather 
information because everyone needs it, and we all benefit from 
it.
    Mr. Inglis. How dominant are we in that area? I mean, in 
other words, does the world depend on us or are we depending on 
them or is it mutual or are we the big players or----
    Vice Admiral Lautenbacher. We are big players, obviously, 
because the United States is big player on everything. And so 
NOAA is a unique concept. The rest of the world has not caught 
up with the NOAA idea, yet which is bringing together Earth, 
atmospheric and ocean organizations together to provide the 
interdisciplinary information for climate change, for ecosystem 
management, for improving warnings, weather and warnings, and 
that sort of thing. But we are dominant in the sense that we 
are a large agency that brings together scientific disciplines 
in a way that other nations have not done yet. But quite 
frankly, we need other nations because we can't observe the 
weather over Russia the same way they can or with their 
geostationary satellite. So that international collaboration is 
very important and actually existed through the Cold War.
    Mr. Inglis. So that is a constant updating kind of thing 
where we are constantly getting and sharing information, 
getting it and sharing it?
    Vice Admiral Lautenbacher. It is constantly being sent to 
our data centers and then being made available through internet 
and high-speed lines. You can go and look at our center, and 
you can look at a composite of all the satellites, and I invite 
any of the Members to come over to our operations center. It is 
in Suitland. It is not far to go. It is an easy trip. You can 
look at a composite of all the geostationary satellite data in 
one shot, you can go to Europe at EUMETSAT and look at it in 
their headquarters, you can go to Japan, Meteorological in 
JAXA, their science space agency and see similar things. This 
is an extraordinary--when you look at all the other 
international problems we have, this is one that is very 
importantly consummated in the right direction.
    Mr. Inglis. Thank you, Mr. Chairman.
    Chairman Lampson. You are welcome. Mr. Baird.

          More on the National Marine Fisheries Service (NMFS)

    Mr. Baird. Thank you. I want to go back if I may, Admiral, 
and I am not trying to put you on the spot, I am just trying to 
get some numbers actually. Do you have available the numbers in 
terms of where your budget for permitting personnel will be if 
it is broken down that way for this year versus the last 
couple----
    Vice Admiral Lautenbacher. We have line items that have 
that in there. I don't have that off the top of my head. I will 
be happy to provide you----
    Mr. Baird. Could you?
    Vice Admiral Lautenbacher.--the sections where we do 
permitting and what the, you know, our budget loading is in 
those areas.
    Mr. Baird. Right. That would be helpful. And related to 
that, how is that line item determined? I mean, does someone 
look and say, look, here is what an average human being--not an 
average but you have got exceptional people working for you--so 
an exceptional human being who is processing permits. This is 
what they can do, this is the permitting load as we see it now, 
this is the shortfall, this is the waiting list, this is the 
cost. Does somebody look at that?
    Vice Admiral Lautenbacher. We do that and at the end, given 
the allocations that we have we have to make decisions on how 
much we can put in each of the areas that are worthwhile 
spending money on, and usually this area comes up each year as 
being one that needs and I add money to it.
    Mr. Baird. That was part of my question. How important is 
this? I can tell you, back home it is very important and I am 
right there with you. I agree that money spent in this area is 
well worth the effort.
    But my friend from Texas was talking about the issue of 
fish. We have some interesting harvest dynamics in our State. 
We spend hundreds of millions of dollars a year trying to 
restore enlisted salmon. And on their way back they get nailed 
by a host of harvest activities, some human, some non-human; 
but we have actually been working with NMFS on the issue of sea 
lion predation.
    So we have got a marine mammal, which is not in danger in 
the case of California, the Sea Lion eating two to three 
percent, maybe more, of the return of one dam alone. Three 
percent of the returning endangered listed species, and we are 
working actually with NMFS out in the district to try to 
address that. We are also working with our sports fishermen 
back--I don't know if this applies to your species but there is 
a thing called survival boxes that net fisheries use so that 
when you bring a fish in and it is one of the listed fish, we 
actually clip the fins of the hatchery fish so we can 
distinguish a hatchery fish from a listed natural fish. And if 
you have caught a natural fish in your net--really, we don't 
use a net on the commercial or the troll fishery. If you caught 
a listed fish, you put it in a little box and the box has 
circulating cold oxygenated water and though they look dead 
when you put them in, they rally and have a remarkable survival 
rate after that. And I do not know if it would apply down where 
you are at, but it is a pretty astonishing thing to see.
    Anyway, I just want to commend NMFS for working on that. I 
think this harvest issue in the Pacific Northwest as we look at 
salmon recovery, we are talking about the four H's as you know, 
Admiral.
    Vice Admiral Lautenbacher. Yes, sir.
    Mr. Baird. We talk about habitat, hydro, hatcheries, and 
harvest. I think harvest has not been looked at enough, not to 
say that it hasn't been looked at, but common sense says if 
these fish have managed to survive the rigors of the ocean and 
they are coming back and they are laden with 2,000 or 3,000 
eggs and they are the ones that are going to reproduce and that 
is when we kill them or we let sea lions kill them, that is a 
pretty counterintuitive strategy. It would be like building a 
neonatal intensive care unit and putting snipers on the roof so 
nobody can get in.
    If we do all these things to restore habitat, and we ask 
landowners and farmers and foresters and cities and governments 
to improve the cleanliness of our water, the temperature of our 
water, the quality of habitat which we do, and then we are not 
as discriminating as we can be in the harvest, then we are 
making a mistake. And I would like to work with you further on 
that. I hear folks out there have been very good to work with, 
but I just wanted to put that marker down. Anything you can do 
to continue to increase the personnel so that we have a--I 
guess at some point I don't expect you to do it here, I would 
like some target in mind of how long we think the average 
reasonable project from application to permit approval should 
we take and then ask the staffing levels of your entity, the 
Corps of Engineers predominantly, because it is really you two 
folks who tend to be--Fish and Wildlife a little bit--but to 
have some reasonable timeframe that we think we can tell our 
consumers this is how long it is going to take to get a permit 
so you can plan that and then hire staff and train staff and 
deploy staff accordingly. That is what I would like us to do, 
and then maybe we can have a dialogue about that.
    Vice Admiral Lautenbacher. I hear you and I will work with 
you, sir.
    Mr. Baird. Thank you, Admiral.

                             Climate Change

    Dr. Pietrafesa. Mr. Chairman, if I could actually respond 
to or make a comment about Mr. Inglis' question about climate. 
The Friends Coalition, which includes the Red Cross by the way, 
believes that greater investments in climate really need to be 
made. For example, the outbreak and spread of infectious 
diseases that affect human health is of great interest to the 
Friends Coalition. And this is an area where climate and 
weather delivery systems can play a very important role both in 
natural systems like outbreak of mosquitoes and the migration 
of birds that can carry diseases and the like. And NOAA is the 
agency that not only has the data archive that can be mined to 
look for some of these relationships, but NOAA has the national 
radar network that can actually track, you know, the migrations 
of birds and insects, believe it or not. That is data that 
actually contaminates the data that they need to use for winds 
and precipitation, but it actually may be useful for health and 
spreads of diseases.
    So these are areas where NOAA has the capability and the 
capacity to actually contribute to climate, weather, human 
health but for which there is no funding presently. And you 
know, an investment of $25 to $50 million a year would begin 
that process. And NOAA is the agency that the Friends Coalition 
looks to for climate information, for climate data and 
information.
    For example, I will turn to another area, sea level. NOAA 
has the repositories, and in fact, NOAA is the agency that has 
maintained the continuous time series of sea level back to the 
early 1900s around the coastal waters of the United States 
including the Great Lakes. And so those data really do 
establish the sea level rise, the sea level trend, and the sea 
level variability record which, believe it or not, if you don't 
know what those overall trends are and you don't know how 
changes in sea level occur from season to season, you can't 
even initialize a surge and inundation model properly, either 
off the North Carolina coast when a hurricane is bearing down 
or on the Texas coast.
    So these climate activities that could be occurring within 
the agency are not because once again, the Friends Coalition 
believes that the agency is under capitalized.
    Mr. Inglis. Or figure out whether a ship can make it under 
a bridge as we were talking the other day. By the way, I assure 
you that there are mosquitoes large enough in South Carolina to 
show up on radar.
    Chairman Lampson. I can assure you they are in Texas as 
well. Before Mr. Baird left, I was going to make an offer to 
him that we each do a little research. He could come down and 
find out some of the problems that we face with some of the red 
snapper problems if he would in turn invite me to come out and 
find out what some of the problems are with those steelhead 
salmon.
    Dr. Pietrafesa. We will be happy to do that, Mr. Chairman.

                           More on the NPOESS

    Chairman Lampson. He might even enlist Mr. Diaz-Balart to 
prove that there are differences between Eastern Gulf and 
Western Gulf in the quality of fish. Let me go back if I may to 
a question about the restriction of NPOESS program. As a result 
of the Nunn-McCurdy restructuring, many sensors vital to 
monitoring weather and climate were eliminated. The weather 
quality data that will be collected from the remaining NPOESS 
sensors won't be precise enough to meet the needs of climate 
change monitoring and science.
    You provided us with the January 2007 White Paper that NASA 
and NOAA prepared at the direction of Dr. Marburger, the 
Director of the Office of Science and Technology Policy. And 
you told the Committee last year that NPOESS would be built 
with the capacity to house all the sensors. The January 2007 
White Paper recommended that three sensors be restored to 
NPOESS. Are these sensors going to be restored?
    Vice Admiral Lautenbacher. We have been able to, as I 
mentioned, the allocation within the 2007 budget to put one of 
the sensors back on the OMPS limb sensor, we believe we can put 
that back on right now. We have money to look at how to get the 
others on, but at this point we are still doing cost estimates 
and doing alternatives to be able to handle the replacement or 
the sustainment of the sensors that are mentioned in the study 
that you have that we turned in to Dr. Marburger.
    Chairman Lampson. What level of funding is required to 
develop it?
    Vice Admiral Lautenbacher. I don't have a precise number at 
this point for it.
    Chairman Lampson. Could you speculate? Just give me an 
approximate.
    Vice Admiral Lautenbacher. But over a period of five or six 
years, it is probably a total of $300 or $400 million. I mean 
we are talking--and maybe more. But it is in the hundreds of 
millions, okay, to deal with this over a longer period, not in 
one budget, but it is cost-streamed over a period of time to 
get all of them back into some position, either on NPOESS or on 
another bus.
    Chairman Lampson. Why would we not include a request for 
that in the 2008 budget, knowing that Congress has really 
pushed for this and wanted it to be done?
    Vice Admiral Lautenbacher. I don't believe we have the 
fidelity to come up here and support nickel by nickel how that 
money would be spend and give you an honest plan that we would 
stand up and say this is going to work. We need to do the work 
we are doing now which is to provide alternatives and look at 
the cost of various--and have a good estimate, an independent 
cost estimate of what it would take to do this.
    Chairman Lampson. Waiting three, four, five years? Think we 
will be able to have it?
    Vice Admiral Lautenbacher. I plan to do it this year. We 
plan to have assets of alternatives in the next few months.
    Chairman Lampson. But would we be able to have it almost 
certainly in the fiscal year 2009 budget?
    Vice Admiral Lautenbacher. It is my goal to try to do that, 
yes.
    Chairman Lampson. As we wait longer, what kind of estimate 
might you guess that it is going to cost additional because of 
the time differential and can we speed it up and save money? 
And would that be wise for us to do?
    Vice Admiral Lautenbacher. I am all for speeding it up as 
quickly as possible. Part of the issue is to not incur the 
risk. The reason they are not on there today is not because we 
do not want the sensors or the data, it is because of the risk 
in building a satellite and having something that will work, 
that will pass the test, and will be launched on time.
    So we have the issue of ensuring that we don't increase the 
risk to the program in terms of cost and schedule, and given 
that we meet that, then I absolutely agree that we should do it 
as efficiently and as rapidly as technically feasible. We 
should do it efficiently. I am all for it.

                       Water Monitoring Programs

    Chairman Lampson. Okay. Let me just squeeze one more 
question in, and then I am going to turn this over to the 
Ranking Member on the Science Committee. Recently, and it has 
probably been two years, maybe two-and-a-half years ago, a 
tragic event occurred down in southeast Texas when a dentist 
was launching a boat I think in Galveston Bay and fell, scraped 
his leg and it got infected by an organism called Vibrio 
vulnificus. It is a bacteria. Lumped in together with other 
organisms, we consider it to be harmful algal bloom organisms 
and he died from that infection within about seven or eight 
days.
    With respect to our water monitoring programs, are coastal 
waters monitored year round or are the monitoring programs 
restricted to particular times of the year, fishing seasons, 
peak recreation seasons when people are swimming?
    Vice Admiral Lautenbacher. A lot of those monitoring 
systems are operated or connected to an EPA network, and I am 
really not the right guy to tell you exactly how that goes. But 
we, in NOAA, worry continuously about the health generally of 
harmful algal blooms and potentially other life-threatening 
organisms that live in the water. So we use satellites to help 
monitor the color, we have used our radars and our weather 
information, and we actually now put out harmful algal bloom 
forecasts for the Gulf of Mexico, for Florida, and we are 
looking to move that into the Texas area in this next year. We 
believe it is a very important area. There is $9 million for 
harmful algal blooms in our request, and we look to expand our 
ability to provide early warning and actually try to in the 
future pinpoint where they come from and do something to help 
mitigate them.
    Chairman Lampson. It would be hugely----
    Vice Admiral Lautenbacher. Very important.
    Chairman Lampson. A life-threatening situation.
    Vice Admiral Lautenbacher. It goes to what Dr. Pietrafesa 
mentioned about health and the atmosphere and the ocean. They 
are directly related.
    Chairman Lampson. Very good. I will recognize Mr. Hall, the 
Ranking Member on the Science Committee. My friend from Texas.
    Mr. Hall. That is the way it is when you are in the 
minority, nothing works.
    Chairman Lampson. I knew that. I knew all about that.

                              New Programs

    Mr. Hall. I thank you for working with us last year on the 
National Integrated Drought Information System Act. The NIDIS 
program authorized by that law is going to lessen the economic 
and environmental devastation caused by drought by equipping 
our farmers and water resource managers with the tools they 
need to prepare for and respond to drought situations. With 
improved monitoring and forecasting, our economy is going to be 
spared what we think to be billions of dollars in drought-
related damages every day. NIDIS was a result of a close 
collaboration between NOAA and university scientists and State 
and natural resource managers. It is an excellent example how 
small investment in environmental monitoring and prediction, I 
think it is around $4 million in your fiscal year 2008 budget 
request, can have an enormous benefit to the Nation.
    Do you have similar programs in the pipeline that would 
address other pressing needs? If so, describe a few of them.
    Vice Admiral Lautenbacher. First of all, let me thank you 
for your help and your work in passing the NIDIS bill. It was 
extremely valuable to us because we have been working with the 
western governors for a number of years on trying to build the 
kind of a program that would be very useful for the Federal 
Government and the States. We also have worked hard locally 
with air quality monitoring.
    Air quality is very important. We now have been able to 
provide air quality forecasting for the whole country, and that 
began in the similar partnerships with our research 
universities, with support from this committee, and work with 
the EPA and local jurisdictions. We are working from ozone 
forecasts now into particulate forecasts, or aerosols. That is 
very important for asthma and other types of respiratory issues 
that people have. It will also help us manage our air quality 
in various places because we will be able to tell where it is 
coming from, where it is going, and what the concentrations 
might be. So air quality is very important to us.
    I mentioned the harmful algal bloom issue, looking at 
health along our coasts. We have, for the first time, the 
Administration did put some money in the Human Health 
Initiative for oceans which the Congress has been a strong 
supporter of and we look forward to working with Congress this 
year with that program.
    We are looking at improving our ability to monitor 
wildfires and provide better information to the people who 
fight those fires. We are looking at a better carbon network, 
and we just put something called a carbon tracker on our 
website built out in Boulder which will allow everyone to take 
a look at where is the carbon in our air. It is experimental. 
We haven't got a full network yet, but we are building the 
tools to help provide information to individual citizens as 
well as policy-makers.
    So those are a few of the things we are working on, sir.
    Mr. Hall. I am sure they help you in monitoring and 
forecasting and helping to plan that can really be meaningful. 
We went through just a terrible drought there in East Texas 
this last time, the worst certainly in my memory and my memory 
is longer than anybody's in here. We were very pleased to 
finally get this bill through, finally to get the President to 
sign it. The one farmer called me and said, ``Well, now, can 
you make it rain?'' This bill does everything short of that, 
but it plans for it.
    You know, no woman in here and very few of you men remember 
the '30s, but in the '30s during the--from '30 to '40, I was a 
paperboy and I delivered papers. But I read my papers, and I 
read about the weather. It seemed like I was always concerned 
about the weather. I watched radio then a lot. I watched WRR 
radio, it was all we had. But we had a professor on there, I 
think Dr. Archer, but I am not sure what his name was; but he 
would tell us what the weather was every day because he had a 
new breakthrough. He had, of all things and nobody else in the 
world I guess had one, a sling cyclometer. And man, that was up 
to date. And he would say what the weather was going to be at 
6:00 every morning. I would be back in after delivering my 
papers, and I would watch him on radio. And I would listen to 
him. And there was a guy up in Paris, Texas, about 80 miles on 
up northeast or 60 miles, something like that, he would listen 
to him and predict just the opposite every year, and he was 
right about 80 percent of the time.
    So I don't know if getting all this equipment is good or 
bad, but it is great to have that information and it is great 
to see the years ahead and see how much it is going to benefit 
them. And I thank both of you for your work and your report and 
for being here today, and I thank this Chairman for calling 
this meeting. I yield back.
    Vice Admiral Lautenbacher. Thank you, sir.
    Mr. Hall. I don't have to turn it off.

                         Hurricane Forecasting

    Chairman Lampson. Thank you, Mr. Hall. It is always a 
pleasure. I certainly did not mean to slight you along the way, 
Dr. Pietrafesa, with all my questions seem to be going to 
Admiral Lautenbacher. But I certainly appreciate both of you 
participating, and I did have a question about the role that 
NOAA's National Hurricane Center played that I would like to 
ask of you. Obviously it has played a critical role during the 
devastating '05 hurricane season, but how can hurricane 
forecasting be improved to better warn the public of such 
disasters? Obviously it is not going to be that piece of 
equipment that Mr. Hall was just referring to, but can we make 
it better and is the budget adequate to achieve the 
improvements in hurricane forecasting that we would all like to 
see happen?
    Dr. Pietrafesa. I do not think the budget is adequate, but 
NOAA, I would have to compliment the agency and the Admiral for 
the efforts that the agency has put forward. For example, the 
new P3 that is coming on line will allow another degree of 
freedom in terms of being able to make more measurements. It 
turns out the stepped microwave frequency sensor that has been 
deployed over the last year or last several hurricane seasons 
has shown that the winds that are blowing just above the 
surface of the ocean are in fact very different than the winds 
aloft. And those winds are the winds that are actually driving 
the wave field and also driving the surface currents. And if 
one is going to do an adequate job well in advance four to 
three to two days to one day out of a hurricane making 
landfall, one really must know what the wind field is like and 
the wave field that it is driving along with the current field. 
And you have to know not only the speeds and directions of the 
wind, but you have to understand the asymmetries that are built 
into each one of these vortices, these hurricane vortexes. 
There is no symmetric hurricane. They are antisymmetric which 
means that they have a very unusual configuration around their 
eye and beyond where the radius of maximum winds occurs. And 
that is an advance that has occurred through NOAA efforts.
    Now, that data then needs to be assimilated into the 
hurricane weather research forecast model and into the surge 
and inundation and flood models that ensue. So that is an 
activity that NOAA is moving towards, but once again, we 
believe that they are undercapitalized in that area. The 
observing network that is out there, once again, NOAA is 
building out. It is still in the process of building that 
system out, but that system has to be more complicated than it 
was in the past. We now understand that the water and the air, 
the atmosphere and the ocean and the gulf waters and the loop 
current and the eddies that are shed, the warm core rings, and 
on the east coast of the United States it is the filaments, the 
Gulf Stream filaments, those systems exchange heat, mass, and 
momentum, between the two. They are interactively coupled in 
real time. For example, Katrina went through nine stages of 
change. She went from a zero to a one up to a five and back 
down to a three when she finally beached herself.
    So if you are an emergency manager or if you are in charge 
of evacuating folks, the models now are capable of actually 
getting down to resolution of 100 feet special resolution on 
land in terms of where and when the inundation is going to 
occur; but if you don't have the forcing, the wind fields, 
correct and you don't know that that event is going to de-
intensify, you are going to get it wrong. You know, if you are 
going to evacuate areas and put everybody on the highway at the 
same time going in one direction, and you have got four lanes 
and you have to station highway patrol at the on and off ramps 
to make sure that nobody is getting on in the wrong direction, 
you have to have the best information possible, and NOAA can 
provide that but not yet.
    So the mathematical architectures are there, the new 
hurricane weather research forecast model is there, the 
interactive coupling with the ocean system models has advanced 
to the point where we are actually running one in my own shop. 
But it requires more investment and research, and so the short 
answer is NOAA is still undercapitalized in this area, but it 
is moving in that direction.
    Chairman Lampson. Excellent. I think those are more 
examples of just how we do get a return on the monies that we 
do invest. I think it is critically important that we push 
ourselves to make those things happen.
    I know what kind of money was expended in life just in 
evacuating some towns that ultimately didn't have to evacuate. 
Probably the people who were best off were those who got 
frustrated, unfortunately, and went back home and sat the storm 
out. But then that is the wrong message to send to other 
people. Many stories that we have read about people who 
couldn't make the trip from wherever they started to wherever 
they were going ended up dying in the process or at the end of 
it and very tragically so.
    So it is a great opportunity for us to push as hard as we 
can possibly push to make some of these things happen when we 
know that the technology exists.
    Mr. Diaz-Balart, you have been awfully quiet over there. 
Can we impose upon you for some words of wisdom or questions? 
Push it and it will come on. Now try.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Actually, I was 
going to follow up on your question, Mr. Chairman. Doctor, you 
gave a very good explanation. I represent parts of Miami and 
Dade County and parts of Collier, so the ratings for the 
National Hurricane Center broadcast during hurricane season in 
the part of the State that I represent far exceed the NFL's. It 
is the thing to watch. There has been incredible progress on 
the accuracy of where a hurricane is going to strike. But as 
far as the strength of the hurricane, obviously, that is where 
we have some weakness.
    Doctor, when you were giving this explanation, how far are 
we? We have the same type of really significant advances in the 
ability to track where a hurricane is going to land, and the 
advances there have been just incredible. How far are we to be 
able to really be able to forecast, you know, the strength of a 
hurricane when it is going to land? Is it just a funding issue, 
is it a technology issue, is it a little bit of both?
    Dr. Pietrafesa. It is both. As I said, the new stepped 
microwave system is really an important new technological 
advance that has been introduced into the capabilities area, 
and NOAA is now flying that in real time.
    Mr. Diaz-Balart. I know it is not a fair question but is 
there a----
    Dr. Pietrafesa. Well----
    Mr. Diaz-Balart. Can we say within two years, five years we 
are going to have--is there any way to do that, any guess?
    Dr. Pietrafesa. Yeah, actually the NOAA Science Advisory 
Board actually put together at the request of the Admiral an 
external review panel that looked into that issue specifically 
about could we make advances in hurricane intensity 
forecasting, and what kind of time period are we looking at. 
And we are looking at a five-year period of time with 
significant investments in that area. You know, it is a half-
decade. The mathematical tools are on the shelf. But it takes 
people once again and it takes putting together partnerships, 
both from NOAA itself, from within the agency, and from without 
the agency. So you have got to join the expertise. You have got 
to leverage the expertise of the academic community that is 
external to the agency. And it turns out there are not a lot of 
hurricane modelers and hurricane technologists in the United 
States. It is a very small community of scientists and 
engineers. But they are capable and are willing to work 
together to create this capability and really looking at the 
order of a half-decade which is a very short time. But it is 
going to take, you know, the several tens of millions of 
dollars per year of investment to get this done.
    Mr. Diaz-Balart. Also, Mr. Chairman, on a separate note I 
represent, as you know, the Everglades; so with all due 
respect, my mosquitoes are bigger than yours.

                      More on Insufficient Funding

    Chairman Lampson. I don't know if I would know the 
difference. I have been chewed on by them too many times in my 
lifetime. Even Mr. Hall can remember some big mosquitoes in 
East Texas. Last question I will ask, unless others have some 
desire to wrap up, the impact of NOAA's tight budget. It has 
got to have some impact on the ability to fund both extramural 
research and to do some of the in-house research that is 
necessary to really do the kinds of things that are necessary.
    Would you comment on the impact of that, Dr. Pietrafesa?
    Dr. Pietrafesa. Well, given NOAA's present budget from the 
perspective of the external community, NOAA is doing the best 
job it can to maintain the services that it provides presently. 
But in the face of, you know, increases in salaries and having 
to pay for turning lights on and off, you know, it is really 
stretched. And so we understand that when push comes to shove, 
it is the external activities that are most likely to be cut. 
So while we understand that, it is difficult for us to accept 
that, the external community, because if you look at the 
leveraged assets, both intellectual and physical assets that 
the external community brings to the table, there is an 
enormous amount of people power and intellectual power and 
compute power and technological power that the external 
community brings to the table. And the external community has 
got a long and rich tradition of partnering with the agency 
which has, in fact, led to many of the advances from research 
to operations to applications that we have experienced.
    But in fact when the Weather Forecast Office at the 
Raleigh/Durham Airport--I come from Raleigh, North Carolina--
was moved to the NC State Campus, within two years, NOAA 
headquarters gave that Weather Forecast Office an award called 
a NOAA Unit Citation Award; and that Citation Award recognizes 
outstanding research and then transitioned from creating new 
research tools to moving them to new operational forecast 
tools. Papers were published, papers were given at conferences, 
but the point was that the forecasts that were emanating from 
that office improved so dramatically that NOAA headquarters 
gave that forecast office this award. And that is an award for 
advances for research and operations which is very unusual. It 
was the first forecast office to ever receive that award.
    It shows what can be done if you put NOAA scientists and 
staff together with the external community and you leverage the 
assets. You challenge the external community, you become 
engaged, you engage them in interesting problems, and you bring 
students to the table. And in fact, that ensures that NOAA will 
have the workforce that it is going to need for the future when 
you engage students. And that is one issue we are seriously 
concerned about is that when external funds are cut, the first 
to go are the students. And so you compromise the future of 
this agency, the scientific and technological excellence of the 
agency because the workforce that could become engaged, that 
would become engaged is lost. And so that is a serious issue.
    Chairman Lampson. Thank you. Mr. Hall.

                           Water Conservation

    Mr. Hall. I want to talk about the future and conservation, 
and this may be wild and crazy but it has been something that 
has been on my mind for a long time and maybe you could give us 
some advice on it or guidance. But we have to start conserving 
our water. If we are not going to get the rain as we predict 
them or as we expect them where over the last 50 years or 
something. How unreasonable is it to think that we ought to be 
studying, create some kind of a study today, maybe not a paid 
study but a study of maybe two people from your agency, two 
from some other, that would be unpaid that would meet maybe 
four times a year or quarterly to talk about the future; and I 
am thinking in terms of--Texas is a typical State, I guess. 
Every state has its own variances of mountains and hills and 
tributaries and all that. But Texas has mountains that get 
water. It goes down, trickles down, gets finally to one of the 
tributaries and then to the ocean and washes away. How 
unreasonable is it to think in terms of one day, when I say 
this as a good bottle of water costs as much as a good bottle 
of beer now and you got to go to really thinking about the 
value of water, but how unreasonable is it to have a million-
dollar subterranean tanks in the desert at the foot of the 
hills or in strategic places to capture this water and not let 
it go all the way down to the sea? Too expensive now to do it 
but there was a time when it was too expensive to put an escape 
module in the NASA vehicle, but we are going to put one in 
there now with the deaths and the losses we have. If we have a 
different day and time and the rains come at a different time 
or they don't come or they do come but not with more time 
between them, why not capture that water and keep it? Think 
about it and have somebody study it, and I won't be here and 
none of us in this room will be here when you will ever need 
something like that; but someone is going to be here to think 
in terms of studying and maybe have huge underground tanks to 
collect that water and not let it go off to the sea. How 
impractical is that?
    Vice Admiral Lautenbacher. I agree----
    Mr. Hall. I don't want to get put away for recommending 
something like that or people getting a net after me.
    Vice Admiral Lautenbacher. I would have to go with you if 
you got put away because I think you are right on.
    Mr. Hall. But somebody ought to be studying that.
    Vice Admiral Lautenbacher. And I agree. I asked my staff 
when I took over to give me their top 10 problems for the 
environment for the future. Forget what we do, forget our 
budget, tell me what are problems are. And when I tabulated 
that, water. And so that is why we have in NOAA now, weather 
and water. Water is one of our four major themes, and we are 
trying to work the problem you talked about, the watershed 
management down to the ocean. How do we deal with that? And my 
crazy idea is that we are going to need a water distribution 
system at some point. So that would include tanks, it would 
include pipes, it would include pumps. I mean, we are going to 
need water. I agree with you, and I think we all need to start 
thinking about the future and how we deal with water. It is a 
precious commodity.
    Mr. Hall. I have even thought about it at my home. I put a 
2,000 gallon tank at the back of my home at the end of my 
series of garages there, and you would be surprised at how much 
water comes off of your roof. It goes into that tank, and then 
for the swimming pool in front, I have a 450-gallon tank, it 
catches it. It will save about $100 a month there with filling 
it up with evaporation things for the pool. It makes sense, and 
I think some day everybody will have that.
    I had a little guy come out from the city about three weeks 
ago. I was watering on a day when it wasn't my day to water, 
and that is kind of embarrassing, you know. But one of my 
neighbors, and I got a few Democratic neighbors there that will 
call in on me every now and then; and you know, my wife and I 
are fighting too loud or we are having arguments or something. 
But I was watering out there on Friday, and that guy's calendar 
said it was Monday, you know. And he came up to me and said, 
``Congressman, I sure hate to come out there;'' and I said, 
``Well, what is the problem?'' He said, ``Well, you are not 
supposed to be watering.'' I said, ``Well, I think I have a 
right to be watering.'' He said, ``Congressman, you don't have 
a right to be watering, and my dad is going to kill me if I 
have to give you a ticket.'' Anyway, he went on and on like 
that a little bit. Pretty soon I said, ``I tell you I am 
different than other people.'' He said, ``Congressman, you are 
not any different to us, now. You are just Ralph Hall down here 
but you have to comply the same rules that everybody else 
does.'' I said, ``Well, here.'' I handed him my hose. He 
wouldn't take it. And I made him take it, and I said, ``Now, 
come on, follow this hose.'' He followed it back around the 
house and got up to the tank there where it was my tank, my 
water that I was watering with. He said, ``God, I was never so 
glad to see anything. I thought I was going to have to go home 
and tell my dad I had given you a ticket.''
    I think everybody is going to--I am thinking about going 
into that business of putting those in and let people pay them 
out. The Chairman and I may put that together.
    Chairman Lampson. Is that----
    Mr. Hall. Need a bunch of money, but I have got the idea, 
he ought to furnish the money for it.
    Chairman Lampson. Would that be considered new technology?
    Mr. Hall. Well, not terribly new but it makes sense and 
keeps you from getting a ticket, too. I probably would have 
been watering whether it was my day or not.
    Dr. Pietrafesa. Mr. Hall, you raise a very interesting 
point. You are a man of deep wisdom. Of every quart of water on 
this planet, if you just take all the water on this planet and 
fit it into a quart, there are only four drops of that water 
that is available for our use, fresh water, only four drops. 
And of those four drops, only one is available on land, on the 
surface of land. So that is how precious that supply of water 
actually is. So you know, if you would use that analogy. So you 
have really hit on a key, key issue, availability of fresh 
water in the future. So we must manage our water resources, you 
know, in a very, very careful way.
    So when we alter the environment and we pave the natural 
environment, particularly the coastal environment over, and we 
go from having a system that can absorb the water at a 100 
percent level and retain the fresh water as fresh water lenses 
under the Barrier Island, and we allow it then--once we pave it 
over, we go from a 100 percent capability of retaining the 
water to down to a five percent. And we give it up, and we 
shouldn't do that. We need to have better management of our 
water systems, our coastal systems and our land-based systems, 
and we must pay more attention to the availability of fresh 
water.
    Mr. Hall. The Chairman and I may set up a study for 
something, to look at it and study it for a while and then 
maybe get some people from different agencies that would give 
some times quarterly to start a plan and start thinking in 
terms of that because I think it is important.
    I yield back my time. Thank you.
    Chairman Lampson. Thank you, Mr. Hall. I think it is 
tremendous. And I remember as a kid the cistern that was at my 
grandparents' house, and I know that my grandmother would never 
wash her hair with anything other than rainwater that had been 
captured.
    Mr. Hall. You know, out front there we had that same 
cistern. We had a stock tied around the faucet there. That was 
to catch the wiggle worms that came through there. And we 
finally wised up and just poured a little coal oil on top and 
that killed the mosquitoes when they laid the eggs. So we were 
innovative even back in 1910.
    Chairman Lampson. Well, see, there we could be. Thank you. 
I think this has been fascinating. Thank you both for coming to 
us today, and before I close I want to say that obviously your 
testimonies have been very thoughtful and insightful and most 
helpful.
    If there is no objection, the record will remain open for 
additional statements from Members and for answers to any 
follow-up questions the Committee may ask of the witnesses.
    Without objection, it is so ordered. This hearing is now 
adjourned. Thank you all.
    [Whereupon, at 3:48 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Vice Admiral Conrad Lautenbacher, Jr. (U.S. Navy, Ret.), 
        Under Secretary of Commerce for Oceans and Atmosphere and NOAA 
        Administrator, National Oceanic and Atmospheric Administration, 
        U.S. Department of Commerce

Questions submitted by Chairman Nick Lampson

Q1.  There are increasingly problems associated with harmful algal 
blooms (HABs) in our coastal areas including more events of greater 
duration and intensity. In the FY 2008 budget, the Administration's 
requested funding for this program is less than current appropriated 
levels. What specific activities that are now funded will be eliminated 
if the HAB program is funded at the requested level?

A1. The President's FY 2008 budget provides approximately $8.9M on 
research related to harmful algal blooms (HABs) and hypoxia. This $8.9M 
provides the tools necessary for managers to respond and predict HAB 
and hypoxia events such as those affecting the New England, Florida, 
Pacific NW and California coasts as well as the Great Lakes every year. 
HAB and hypoxia events threaten human health, kill marine animals, 
impact fisheries, and cost millions of dollars each year.
    In addition, the FY 2008 President's budget provides $20M for near-
term priorities projects included in the report Charting the Course for 
Ocean Science in the United States in the Next Decade: An Ocean 
Research Priorities Plan and Implementation Strategy. These funds will 
be used in part to develop in situ sensors for rapid detection of 
pathogens, harmful algae and their toxins in coastal areas. Also, an 
increase is requested for Gulf of Mexico Partnerships. This funding may 
be used to support coastal communities in their efforts to address 
harmful algal blooms and hypoxia events through competitive grants.

Q2.  NASA develops sensors that generate new data streams that NOAA 
begins to incorporate into their operational missions. Some of the 
current examples of NASA satellites that are improving our forecasting 
abilities are the Tropical Rainfall Measuring Mission (TRMM) and the 
Quick Scatterometer (QuickSCAT) satellite used in tropical storm 
forecasting. However, there is still a serious problem providing a 
smooth transition from research to operations for instrumentation that 
proves useful in improving weather forecasting and climate monitoring. 
What is being done to address this problem?

A2. NOAA and NASA have a long history of collaborating on Earth 
observation systems. Many of the sensors that fly on NOAA's 
geostationary and polar-orbiting operational environmental satellites 
are based on technology developed by NASA to satisfy NOAA operational 
requirements.
    NASA and NOAA mission coordination was further strengthened with 
the December 2005 formation of the NASA-NOAA Joint Working Group on 
Research and Operations (JWG). This team, formed in response to Section 
306(a) of the NASA Authorization Act of 2005, provides strategic 
oversight of NASA-NOAA collaborative activities and facilitates the 
formation of specific mission transition teams.
    NOAA and NASA have other collaborative interactions such as:

        <bullet>  NASA-NOAA Executive Roundtable: At the Executive 
        level, a program of conducting ``Roundtable'' meetings has been 
        reinstituted. These meetings are jointly led by the NOAA 
        Assistant Administrator for Satellite and Information Services 
        and the Director of the NASA Earth Science Division.

        <bullet>  Program Management Councils: Both NASA and NOAA have 
        executive-level Program Management Councils (PMCs). These 
        councils provide a regular forum for senior management review 
        of major satellite development activities. NOAA has formally 
        included NASA as members of its Program Management Council. 
        NASA has similarly asked senior NOAA individuals to participate 
        in relevant NASA Program Management Council meetings.

        <bullet>  Data Assimilation: NOAA and NASA currently 
        collaborate on algorithm development commensurate with hardware 
        development through the Joint Center for Satellite Data 
        Assimilation.

        <bullet>  Staff Rotations: Ongoing coordination between NASA 
        and NOAA is being facilitated by the exchange of staff.

    NOAA acknowledges the value of collaboration with NASA, to more 
efficiently transition appropriate research capabilities into 
operations. NOAA has requested the National Academy of Sciences to 
provide additional scientific recommendations on how best to approach 
this issue, in response to the February 2007 report from the National 
Academy of Sciences' National Research Council entitled ``Earth Science 
and Applications from Space: National Imperatives for the next Decade 
and Beyond.''

Question submitted by Representative Brian Baird

Q1.  Please provide the proportion of full time equivalents (FTEs) 
devoted to permitting at the National Marine Fisheries Service for the 
proposed FY 2008 budget, as well as for the previous four years.

A1. National Marine Fisheries Service issues many different types of 
permits (e.g., commercial fishing, MMPA, ESA) from offices around the 
country. Within NFMS there is not a specific group of employees that 
exclusively issues permits. Of those employees working to issue 
permits, that task only represents a portion of their time and job 
responsibilities, making explicitly answering this question difficult. 
NMFS may be better able to address this question regarding a specific 
type of permit, please let us know.

Questions submitted by Representative Bob Inglis

Q1.  Your budget request includes an increase of $2 million for 
research to improve predictions of hurricane intensity. What type of 
work will that money support? When could we expect to see that research 
translate into changes in operational hurricane forecasting and 
warnings? In the past, NOAA has had a hard time translating research 
findings into operational advances. Does NOAA have a plan for using the 
results of this research effort to improve operational hurricane 
forecast products?

A1. In the past 10 years NOAA has made major strides in improving 
(reducing) its hurricane track forecast errors--but has made less 
progress in improving its hurricane intensity and related inundation 
forecast skill. The $2.0M increase will be used to support research 
aimed at improving NOAA's ability to forecast hurricane intensity and 
provide better information for emergency managers and the public. 
Specifically, the money will be used to research physics of intensity 
change in tropical cyclones, flux and sea spray, and to develop 
applications for tropical cyclone forecasting.
    NOAA is committed to maximizing the value of its research and 
ensuring successful transition of research to application. We have 
taken and continue to take steps to ensure the bridge between research 
and operations is appropriately identified and resourced. This 
commitment is demonstrated by NOAA's adoption of a Transition of 
Research to Application policy and implementation procedures, the 
development of an inter-agency Tropical Cyclone Research Plan 
(www.ofcm.gov), and a Hurricane and Related Inundation Plan. NOAA 
research is annually reviewed to assess readiness for transition. A 
Joint Hurricane Testbed already in place at the National Weather 
Service's National Hurricane Center evaluates competitively chosen 
candidate technology of deemed value to hurricane forecasting. After 
research produces results, NOAA's process for transitioning them into 
forecast operations requires multiple steps to ensure the value and 
quality of changes. This usually takes a minimum of two years.
    Examples of NOAA research successfully transitioned into forecast 
operations include a statistical-dynamical intensity model, Rapid 
Intensification Index statistical models for the Atlantic and Northeast 
Pacific, improvements to the Geophysical Fluid Dynamics Laboratory 
model that significantly increased its track and intensity forecast 
skill, and radiometrically-derived surface wind speed data (i.e., the 
Stepped Frequency Microwave Radiometer) taken from hurricane hunter 
aircraft.
                   Answers to Post-Hearing Questions
Responses by Len Pietrafesa, Associate Dean, Office of External 
        Affairs; Professor of Ocean and Atmospheric Sciences, College 
        of Physical and Mathematical Sciences, North Carolina State 
        University

Questions submitted by Chairman Nick Lampson

Q1.  In your testimony you describe the Friends of NOAA coalition as 
comprised of a diverse group of organizations that all benefit from 
NOAA's products and services. The coalition is relatively recent in its 
formation. Please provide a few examples to illustrate the breadth of 
membership in the coalition with a few examples of the services and 
applications of NOAA's work that are important to this community. What 
do the diversity of the coalition and the NOAA services they utilize 
tell us about the future workforce the agency needs to provide these 
services?

A1. The Friends of NOAA Coalition was formed in 2006 in an effort to 
bring together a cross section of the diverse communities supported and 
benefited by the products, services and resources provided by the 
National Oceanic and Atmospheric Administration (NOAA). The coalition's 
purpose is to inform policy-makers about the importance of NOAA to the 
health and well-being of this nation on a variety of levels. Today, 
this ad hoc coalition consists of over 40 different organizations 
including the Shipbuilders Council of America, the Consortium for 
Oceanographic Research and Education, the Reinsurance Association of 
America, the National Marine Sanctuary Foundation, the Joint Ocean 
Commission Initiative, the Alliance for Earth Observations, the 
University Corporation for Atmospheric Research, the National 
Association of Marine Laboratories, the Red Cross and The Weather 
Channel. A complete list of members of the coalition can be found at 
its website: http://www.friendsofnoaa.org.
    Let me provide a few examples that demonstrate the value of NOAA's 
outcomes that ultimately benefit the Nation and its citizens. The data 
and forecasts provided by the National Weather Service provide 
lifesaving information to assist State and local officials prepare for 
and respond to severe weather events such as tornadoes and hurricanes. 
Hundreds of thousands of residents of the gulf coast are alive today 
due to the accuracy of the NOAA's National Weather Service forecast for 
Hurricane Katrina. This forecast was based on the transitioned results 
of prior research conducted over several decades. For NOAA to continue 
to develop ever more precise and accurate life saving forecasts will 
require a strong and continuing investment in the Nation's weather 
enterprise, which includes among other issues: applied research; 
technology development; high performance computing; applications; and 
education and training, including public education and outreach.
    According to the Department of Commerce, preliminary estimates of 
the potential economic benefits from new investments in regional 
coastal ocean observing systems in U.S. waters are in the billions per 
year, estimated largely in terms of increased economic activity and 
social surplus realized as a result of improved information about 
coastal marine conditions. Albeit, it is my opinion that more and 
better observations of both the atmosphere and the coastal ocean at 
every observing site will greatly improve weather forecasts not only 
over the coastal ocean but also over land. For example, the forecasts 
of the spawning or further intensification of extra-tropical cyclones, 
also known as nor'easters, and the amounts and types of precipitation, 
could be greatly improved by the availability of air-sea data from a 
more ambitious observing network along the eastern seaboard from 
Charleston to Lewes. The data would be assimilated in real time into 
interactively coupled ocean-atmosphere models. How much in savings to 
the economy would this advanced capability result in? The savings would 
likely be in the many tens of billions per year as commerce and 
transportation and other societal benefits are derived. Both NOAA and 
its regional coastal partners are heavily invested in the continued 
development of this network of coastal observing systems that will, 
over time, contribute enormous economic benefits and better information 
to mitigate against the loss of lives and property.
    Finally, the kinds of data, forecasts, and environmental 
predictions provided by NOAA such as long-term weather forecasts and 
regional climate change projections--are of vital importance to the 
insurance industry as they routinely assess risk and provide financial 
protection against future unplanned events to private citizens, State 
and local governments, and industry.
    NOAA must continue to provide ever more accurate environmental 
information to meet the needs of its stakeholders, such as those in 
this coalition. To do so will require the development of an ever more 
sophisticated and technically trained workforce, a workforce capable of 
integrating a vast and diverse amount of data and information and 
turning it into a form that can be readily used and depended upon by 
federal, State and local policy officials.

Ouestions submitted by Representative Bob Inglis

Q1.  In your testimony you state that there is a need for both public 
and private support of Earth observations. What would you recommend the 
balance should be between publicly and privately funded Earth observing 
efforts? What types of observations should be public, what type 
private?

A1. Basic, raw observations of Earth are a ``common good'' that support 
many efforts for the public good, including education, research, and 
protection of life and property. They also support a great many 
industries and commercial efforts. Thus the government has a valid 
responsibility to provide these basic observations. More specialized 
observations for particular applications could be supported by the 
private sector, but they will understandably want to make a profit and 
hence will hold the observations proprietary.
    In practice, the private sector can perform all of the measurement 
functions currently undertaken by the public sector, and in many cases 
the private sector can do these more effectively than the public 
sector. That said NOAA should take the lead on weather and climate 
observations. But private industry might implement the measurements 
according to NOAA, for example NWS, criteria and standards; because 
industry may be able to make such observations at reduced cost to the 
government at no sacrifice in quality (examples of existing practices 
include lightning data). Of course, these data that private industry 
might collect cannot be proprietary and must be publicly available in 
real time.
    Improvements in our Earth observing system required to support 
higher-resolution modeling and warnings might best be implemented by 
public-private consortia for at least two reasons. The public sector 
does not have the financial or personnel resources to go it alone, and 
those dense/more comprehensive (e.g., finer scale land or coastal ocean 
observing networks) will serve many applications apart from public 
safety and so should the costs should be shared among the private and 
public sectors.
    Freeing the public sector from all of the responsibilities of 
observations (by including industry) will enable the public sector to 
focus greater effort on its core activities (e.g., data assimilation 
and nowcasting in support of forecasts, watches and warnings and of 
climate). The Oklahoma Mesonet is an example of a very successful 
public-private observing network. The coastal areas are ripe with like 
opportunities.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                   Statement of Dr. Braxton C. Davis
                 Director, Science and Policy Division
            Office of Ocean and Coastal Resource Management
                     South Carolina Dept. of Health
                       and Environmental Control
    Mr. Chairman and Members of the Committee: As Director of the 
Science and Policy Division of the South Carolina Coastal Zone 
Management Program, which is carried out by the Office of Ocean and 
Coastal Resource Management in the SC Department of Health and 
Environmental Control (SCDHEC-OCRM), I appreciate the opportunity to 
provide testimony on the importance of the National Oceanic and 
Atmospheric Administration (NOAA) in South Carolina. Having formerly 
held a research faculty position at the University of South Carolina, I 
hope that I can offer some insights on the support that NOAA provides 
in both coastal research and coastal management settings.
    As you may know, South Carolina's eight coastal counties have a 
substantial impact on the economy of the State and the lives of its 
citizens. The resident population of the eight coastal counties in 2005 
was approximately one million (nearly a quarter of the State's total). 
These counties support over $40 billion in economic output annually. 
Tourism and related industries lead the economic markets in coastal 
South Carolina, and are supported by significant and accessible natural 
resources, including over 150 miles of sandy beaches, 500,000 acres of 
salt marsh, and substantial local fisheries. Commercial shipping and 
port activities add more than $9.4 billion annually in statewide 
personal income.
    South Carolina's coastal areas are experiencing rapid population 
and economic growth. The Myrtle Beach area experienced a 36.5 percent 
population growth in the 1990s and was recently ranked the 13th fastest 
growing area in the Nation. In the Charleston region, the population is 
expected to grow by almost 50 percent over the next two decades with 
the development of 113,000 new homes in planning stages and/or under 
construction. Since 1990, Beaufort and Jasper Counties grew at a rate 
of 40 and 35 percent, respectively, and are expected to continue to 
expand at this pace based on approved developments. Tourism and other 
industries along the coast are also expected to increase substantially.
    Recognizing the importance of the Nation's coast, in 1972, Congress 
enacted the Coastal Zone Management Act (CZMA). The Act establishes a 
voluntary federal-State partnership to encourage states to develop and 
implement programs to manage their coastal communities and resources in 
a comprehensive and balanced manner. The CZMA provides both monetary 
and other incentives for participating states. South Carolina entered 
into the CZMA partnership thirty years ago when the state enacted the 
SC Coastal Zone Management Act of 1977 to establish a comprehensive 
program ``to protect and enhance the State's coastal resources by 
preserving sensitive and fragile areas while promoting responsible 
development in the eight coastal counties of the State.''
    The SCDHEC-OCRM accomplishes this mission through direct regulation 
of developments and alterations in marine and intertidal areas of the 
coast, including estuaries, marshes and beach/dune systems; and through 
certification of other State and federal permits for consistency with 
approved coastal policies. The agency also assists local governments 
with coastal planning issues and improvement projects. Our new Science 
and Policy Division seeks to better integrate coastal science into 
management decisions and policies, and works very closely with other 
NOAA-funded state partners, including the South Carolina Sea Grant 
Consortium, North Inlet-Winyah Bay National Estuarine Research Reserve 
(NERR), and the ACE Basin NERR.

Priority Coastal Management Issues

    To demonstrate how our state and NOAA are working together on 
coastal and marine issues, I would like to share with you several on-
the-ground experiences and examples.
    Some of the most pressing issues associated with the rapid growth 
along South Carolina's coast are the associated impacts on coastal 
water quality. As watersheds become increasingly developed, fresh 
groundwater supplies are declining, and wastewater and surface runoff 
are delivering increased nutrient loads, bacteria, pesticides, 
herbicides, and even pharmaceuticals to rivers, estuaries, and near-
shore waters. NOAA plays a key role in our ability to understand, 
predict, and respond to these water quality concerns. Our program has 
interacted closely with the NOAA Hollings Marine Laboratory (HML) in 
Charleston, where tools are developed to protect coastal ecosystems by 
understanding environmental indicators and how they relate to human 
health issues. For example, HML has examined the impacts of increased 
urbanization on water quality in tidal creek systems in SC. In 
addition, the NOAA Center for Coastal Environmental Health and 
Biomolecular Research (CCEHBR), also based in Charleston, is testing 
emerging environmental contaminants in our region, including new 
pesticides, herbicides, and pharmaceuticals to predict their effects on 
marine life and habitats.
    Emerging regional components of the Integrated Ocean Observing 
System (the Carolinas Coastal Ocean Observing and Prediction System, 
Caro-COOPS; the Coastal Ocean Research and Monitoring Program, CORMP; 
and the Southeast Atlantic Coastal Ocean Observing System, SEACOOS), 
have also assisted SC researchers and managers in responding to an 
unusual water quality event along the Myrtle Beach Grand Strand that 
occurred in 2004. By partnering with the NOAA-funded IOOS community in 
our state, we now have real-time, continuous monitoring of water 
quality conditions at several piers along the Grand Strand, and we are 
beginning to understand the conditions that led to an unprecedented, 
large-scale fish stranding that year.
    South Carolina is also vulnerable to the impacts of major 
hurricanes, which have impacted our coast on the order of once every 
twelve years. As evidenced by the 2005 hurricane season, these storms 
can be devastating in terms of lives lost and economic impacts. As a 
researcher with the University of South Carolina, I collaborated with a 
research team who, with NOAA funding, worked to develop improved 
information products for SC emergency managers based on state-of-the-
art storm surge modeling. These refined model projections for the SC 
coast demonstrate that significant flooding will occur even in Category 
3 hurricane scenarios, and are now being tied to community 
vulnerability studies. Also with NOAA support, our research team 
partnered with local Weather Forecast Offices (WFOs) to integrate real-
time offshore observations from our subregional IOOS components with 
the latest observations, forecasts, and warnings of the NOAA National 
Weather Service (www.weather.gov/carolinascoast).
    South Carolina is beginning to view many of the issues facing our 
coast through the lens of climate change, given the serious 
implications of the potential for an increase in the rate of sea level 
rise and changes in our regional climate. NOAA provides data that are 
critical to understanding climate variability and change, and the NOAA 
Climate Change Program has increased its focus toward providing data 
and research support for coastal states seeking to adapt to changing 
coastal climates and sea level rise. In South Carolina, the Charleston-
based NOAA Coastal Services Center (CSC) is providing our coastal 
management program with critical spatial data and technical support in 
our initial efforts to address ongoing and future shoreline changes. We 
also appreciate the leadership that NOAA's CSC is providing to enhance 
community ``resiliency'' to potential impacts of climate change.

Research and Information Needs

    In addition to the support described above, we have continuing 
science needs related to NOAA's future planned activities. First, a 
wide variety of marine and coastal data collection efforts have been 
undertaken over the past several decades, but they are sometimes 
difficult to discover, access and/or merge for a comprehensive 
understanding of environmental health and resource trends. In 
attempting to manage the cumulative impacts of often small-scale 
developments and alterations, it is critical that state resource 
agencies have integrated, synthesis products from NOAA that are easy to 
use and clearly define data limitations, changes in methodologies or 
scales, and ongoing data gaps. In particular, the ecological histories 
of specific coastal areas are often not well documented; and spatial 
data such as coastal topography, bathymetry, and habitat maps are at 
times disconnected or available at irregular intervals.
    In a related matter, it is often difficult to fund and maintain 
basic environmental monitoring at appropriate spatial and temporal 
scales for resource planning and management. For example, little is 
known about short- and long-term water quality trends in near-shore 
marine and coastal waters outside the boundaries of our National 
Estuarine Research Reserves. Some of the basic questions about the 
status and trends of our coastal resources remain difficult to assess. 
The development of the Integrated Ocean Observing System promises an 
increased density of marine observations, and the potential for 
integration and expansion of existing local, State, and federal 
monitoring programs, which we feel are equally important.

NOAA's FY 2008 Budget Proposal

    Sustained and robust funding for NOAA is critical to South 
Carolina's coasts. The President's budget requests $3.8 billion, an 
increase of $131 million over last year's budget. The budget proposes 
increases for numerous programs important to South Carolina and other 
states, including regional ocean observing systems, mapping and 
charting, implementation of the Ocean Research Priorities Plan, 
regional ocean partnerships, and the Coastal and Estuarine Land 
Conservation Program. While I applaud this increase in funding, 
particularly given these tight fiscal times, the President's budget 
still falls short of what Congress appropriates to NOAA each year. The 
shortfall puts programs at risk and hampers the ability of current 
programs to keep pace with emerging priorities and inflation.

Conclusion

    State coastal zone management programs play a key role in the 
coordination of federal, State, and local activities that affect our 
coast. We are striving to leverage existing funds and programs through 
new partnerships, but we have considerable and ongoing responsibilities 
for managing coastal resources and protecting the public from coastal 
storms and other hazards. NOAA currently supports nearly half of 
SCDHEC-OCRM's annual operating budget, and this funding, along with the 
science and technical support that NOAA provides, is vital to our 
coastal program and to those of many other coastal states and 
territories. State coastal programs should not be considered as 
stakeholders of NOAA--we consider ourselves part of NOAA and look 
forward to continued support from Congress for the priority areas 
identified in NOAA's FY 2008 budget proposal.
    Thank you again for the opportunity to help inform the Committee 
about NOAA's vital role is assisting our state in managing natural 
resources and reducing the impacts of coastal hazards. I would be happy 
to respond to any additional questions that you may have.

                                   

</pre></body></html>
